<html>
<title> - PROGRESS TOWARD IMPROVING WATER QUALITY IN THE GREAT LAKES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
       PROGRESS TOWARD IMPROVING WATER QUALITY IN THE GREAT LAKES 

=======================================================================

                                (110-92)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 23, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

40-627 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
VACANCY

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             RICHARD H. BAKER, Louisiana
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California, Vice     JOHN R. `RANDY' KUHL, Jr., New 
Chair                                York
ELEANOR HOLMES NORTON, District of   CHARLES W. BOUSTANY, Jr., 
Columbia                             Louisiana
BOB FILNER, California               JEAN SCHMIDT, Ohio
ELLEN O. TAUSCHER, California        CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    THELMA D. DRAKE, Virginia
GRACE F. NAPOLITANO, California      JOHN L. MICA, Florida
MICHAEL A ARCURI, New York             (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)


















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Brandt, Dr. Stephen B., Director, Great Lakes Environmental 
  Research Laboratory, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    32
Brooks, Hon. Irene, Acting Chair, United States Section, 
  International Joint Commission of the U.S. and Canada, 
  accompanied by Commissioner Allen I. Olson, United States 
  Section International Joint Commission of the U.S. and Canada..    19
Emanuel, Hon. Rahm, a Representative in Congress from the State 
  of Illinois....................................................    12
Grumbles, Hon. Benjamin H., Assistant Administrator for the 
  Office of Water, U.S. Environmental Protection Agency, 
  accompanied by Mary A. Gade, Program Manager, Great Lakes 
  National Program Office, U.S. Environmental Protection Agency..    32
Kirk, Hon. Mark Steven, a Representative in Congress from the 
  State of Illinois..............................................    16
Maurer, David, Acting Director, Natural Resources and 
  Environment, U.S. Government Accountability Office.............    19
Muedeking, Christina, Central Regional Assistant Chief, Natural 
  Resources Conservation Service, U.S. Department of Agriculture.    32
Stupak, Hon. Bart, a Representative in Congress from the State of 
  Michigan.......................................................     9
Visclosky, Hon. Peter J., a Representative in Congress from the 
  State of Indiana...............................................     8
Wooley, Charles, Acting Regional Director, Midwest Region, U.S. 
  Fish and Wildlife Service, U.S. Department of the Interior.....    32

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    53
Costello, Hon. Jerry F., of Illinois.............................    54
Kagen, Hon. Steve, of Wisconsin..................................    56
Mitchell, Hon. Harry E., of Arizona..............................    59
Oberstar, Hon. James L., of Minnesota............................    61
Stupak, Hon. Bart, of Michigan...................................    66

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Brandt, Dr. Stephen B............................................    72
Brooks, Hon. Irene B.............................................    83
Grumbles, Hon. Benjamin H........................................    89
Maurer, David....................................................    99
Muedeking, Christina.............................................   112
Wooley, Charles..................................................   117

                       SUBMISSIONS FOR THE RECORD

Grumbles, Hon. Benjamin H., Assistant Administrator for the 
  Office of Water, U.S. Environmental Protection Agency, response 
  to request for information.....................................    45

                        ADDITIONS TO THE RECORD

National Association of Conservation Districts, Steve Robinson, 
  Acting President, written statement............................   123

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 HEARING ON PROGRESS TOWARD IMPROVING WATER QUALITY IN THE GREAT LAKES

                              ----------                              


                      Wednesday, January 23, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. Good morning. Today, the Subcommittee begins 
the second session of the 110th Congress, and we will examine 
what progress has been made in improving the water quality in 
the Great Lakes.
    Over the years, this Subcommittee has returned again and 
again to this issue of the ecological and environmental health 
of the Great Lakes. In part, this is because of the importance 
of the lakes to the economic and environmental sustainability 
of the States and provinces surrounding the Great Lakes Basin.
    However, this repeated attention is also warranted because 
the lakes provide a good indicator of our efforts to protect 
water quality throughout the Nation. The successes and 
challenges in improving water quality that we see in the Great 
Lakes can also be seen in water bodies across the United 
States.
    Unfortunately, the message that I am expecting to hear from 
today's testimony is that our Nation and the Great Lakes States 
are doing a fair job in preventing water quality from getting 
worse, but that we are far less successful in realizing 
significant improvements in water quality.
    Today, we will hear testimony that raises concern about 
Federal and State efforts to address ongoing point sources of 
pollution into the Great Lakes. Conceptually, these are the 
simplest of all ongoing sources of pollution to the lakes. Many 
of the chemicals of concern found in these point source 
discharges are the same compounds that show up year after year 
in the fish advisories posted for the Great Lakes waters. This 
testimony is concerning because it calls into question the 
effectiveness of Federal and State efforts to address all 
ongoing sources of impairment in the Great Lakes.
    We will also hear concerns expressed by the International 
Joint Commission, the binational organization created to 
oversee water quality and water quantity issues in the Great 
Lakes. Their concerns center around whether the authorities 
contained in the Great Lakes Water Quality Agreement are up to 
task to address today's water quality challenges.
    I welcome all the witnesses here this morning and I look 
forward to their testimony.
    As I noted earlier, the successes and challenges in 
addressing water quality in the Great Lakes can also be 
identified in efforts to protect water quality throughout the 
Nation. As noted in EPA's recently issued Clean Water Act Needs 
Survey, the gap between wastewater infrastructure needs and 
funding is increasing.
    The Great Lakes States have identified the control of 
discharges from combined and sanitary sewer systems as the key 
challenge of the Great Lakes Regional Collaboration. However, 
States from Texas to New York to Arizona have all identified 
significant wastewater infrastructure needs as a water quality 
challenge that must be addressed.
    In addition, we know that non-point sources of pollution 
continue to pose a challenge to achieving water quality 
standards nationwide. Yet, we struggle with the effectiveness 
of current Federal, State and local efforts to reduce the 
amount and concentration of non-point sources of pollution.
    While we are taking steps to begin to address the 
contaminated sediments in the Great Lakes areas of concern, 
toxic sediments are, by no means, localized to the Great Lakes. 
In many other communities throughout the Nation, the legacy of 
past contamination continues to pose a human and ecological 
health threat that must be addressed.
    I am pleased that today the Subcommittee begins a second 
session of the 110th Congress. I am hopeful that we will repeat 
much of the successes of the previous session. Last year, this 
Subcommittee moved vital legislation to address many of the 
water resource challenges faced by our Nation. For example, 
after seven years of effort, the Subcommittee was instrumental 
in the enactment of the Water Resources Development Act of 
2007.
    I look forward to working with my colleagues and most 
especially I welcome back Mr. Duncan as the Ranking Member to 
this Subcommittee as Mr. Baker has taken on a new and 
challenging assignment outside the Congress.
    In addition, the Subcommittee moved the first 
reauthorization of the Clean Water Revolving Fund to pass the 
House in over a decade, and I am hopeful that the other body 
will follow suit so that Congress can send a Clean Water Bill 
to the President before the end of the year.
    In months to come, the Subcommittee will continue to 
investigate and pursue programs and policies of importance to 
the Nation. In the near future, the Subcommittee will begin 
hearings on reauthorization of EPA's brownfields program, 
reauthorization of many of EPA's place-based programs such as 
the Chesapeake Bay program office and the Great Lakes program 
office, and reauthorization of the Great Lakes Legacy Act, 
which is of particular importance to our hearing today.
    I look forward to working with my colleagues on these and 
other issues of importance to the Nation's water resources 
needs.
    Let me close by saying Mr. Lipinski has asked to join us 
today, and he has been welcomed. I also welcome our Full 
Committee Chair.
    Let me begin by asking unanimous consent that the gentleman 
from Illinois, Mr. Lipinski, a Member of the Committee but not 
the Subcommittee on Water Resources and Environment, be allowed 
to participate in today's Subcommittee hearing, without 
objection.
    And, we are very pleased to have Mr. Duncan back, my good 
friend. We have shared this Committee together before when he 
was Chair, and I now recognize him.
    Mr. Duncan. Well, thank you very much, Madam Chairwoman, 
and it is a pleasure to be back with you. I will be remaining 
as the Ranking Member on the Highways and Transit Subcommittee, 
but I was asked to fill in for Mr. Baker who is leaving in a 
few days to head up a major association.
    As you know, the Republicans have a six year limit on 
Chairmanships. During the six years I chaired the Aviation 
Subcommittee, I worked with the same Ranking Member the entire 
time, our friend, Bill Lipinski, who was a joy to work with. 
During my six years chairing this Subcommittee, my Ranking 
Members were Jerry Costello, Peter DeFazio and then the last 
two years, I had the privilege of working with you, and you 
were certainly a joy to work with also.
    This is going to be a very important Subcommittee this 
year. I understand that our outstanding Chairman, Chairman 
Oberstar, intends to have another Water Resources Bill to take 
up some New Starts that we couldn't take up in the last bill, 
and it is going to be a lot of important work.
    I want to welcome everyone to the hearing here this 
morning. The Great Lakes are a very high priority particularly 
to Members from Minnesota, Wisconsin, Michigan, Illinois, 
Indiana, Ohio, Pennsylvania and New York and particularly the 
districts that border the Great Lakes. However, the Great Lakes 
are also important to our entire Nation.
    The Great Lakes have six quadrillion gallons of water. They 
account for 18 percent of the world's fresh water supply and 95 
percent of the U.S. fresh water supply. Over 33 million people 
live in the Great Lakes Region, representing one tenth of the 
U.S. population and one quarter of the Canadian population. The 
lakes are the water supply for most of these people.
    The Great Lakes help support $200 billion a year in 
economic activity in the region including 50 percent of the 
U.S. manufacturing output, 30 percent of all U.S. agricultural 
sales and transportation of 50 million tons of waterborne 
cargo, half of which is exported overseas.
    I don't think we could emphasize too much the importance of 
the Great Lakes to this entire Nation. Recreational benefits in 
the Great Lakes Region amount to over $35 billion in economic 
activity and support over 240,000 jobs.
    Like many ecosystems around the Country, the Great Lakes 
have been impacted by industrial growth, urban development and 
agricultural and commercial activity. While most areas of the 
Great Lakes can be used safely for swimming, recreation and as 
a source for drinking water, the lakes do not fully support 
aquatic life and it is not always safe to eat the fish caught 
in the Great Lakes.
    These water quality problems have a variety of causes. Part 
of the problem is from ongoing water discharges, urban and 
agricultural runoff and air pollution, similar problems faced 
by lakes, rivers and bays all around the Country.
    The Great Lakes, however, represent a unique environmental 
challenge. As the Great Lakes are nearly enclosed water bodies 
with limited outflow, toxic substances have built up in the 
lakes, sinking to the bottom and contaminating lake sediments.
    In 2002, this Committee moved legislation to introduced by 
our colleague and really outstanding Member of this 
Subcommittee, Congressman Ehlers, the Great Lakes Legacy Act, 
to help jumpstart remediation of contaminated sediments in the 
Great Lakes. I was very proud to have chaired the Subcommittee 
when President Bush signed this legislation into law. The 
Legacy Act is one of many tools available for addressing 
ecosystem restoration in the Great Lakes.
    Invasive plant and animal species are also impacting the 
Great Lakes. There are at least 25 major non-native species of 
fish in the Great Lakes. Zebra mussels invade and clog water 
intake pipes, costing water and electric-generating utilities a 
hundred to four hundred million dollars a year in prevention 
and remediation efforts. It is said that invasive species are 
discovered at the rate of one every eight months.
    Efforts to improve the Great Lakes water quality and 
restore the health of the Great Lakes ecosystem are proceeding 
through the cooperative efforts of Canada as well as the 
efforts of numerous Federal, State and local and private 
parties.
    All of the agencies are involved, the leading agencies. We 
have a taskforce under the lead of the EPA that has brought 
together or is bringing together 10 Federal agencies 
responsible for administering more than 140 different programs 
in the Great Lakes Region, and I think it is safe to say that 
we are doing more in regard to the Great Lakes than probably at 
any time in our history, but we have a lot of work left to do.
    I look forward to hearing from the witnesses about the 
progress made in restoring the Great Lakes in light of the more 
30 actions taken by Congress and the overall performance of 
these 200 funding programs. This is a very timely and important 
hearing, and I thank you, Madam Chairwoman, for letting me make 
these brief opening remarks.
    Ms. Johnson. Thank you very much, Mr. Duncan.
    The Chair now recognizes the Full Committee Chair, Mr. 
Oberstar.
    Mr. Oberstar. Thank you, Madam Chair, and thank you very 
much for taking on the responsibility of these hearings. This 
is the first in a series of hearings that we will have on Great 
Lakes water quality.
    Mr. Duncan, welcome back to the role of water issues in our 
Committee. As you said, we are going to pursue vigorously a 
Water Resources Development Act this year and give Mr. 
Visclosky more work to do in his Appropriations Subcommittee.
    Madam Chair and colleagues, over the years and that is 
going on 34 now, I have given so many opening statements on 
Great Lakes water quality, I will not add to the burden. 
Someday, I am going to collect them all into a compendium and 
publish it as a memoir of some sort. Maybe Mr. Ehlers will join 
with me in doing that. He has given so many as well.
    Suffice it to say--and I have a very elegant statement with 
wonderful things that I have thought and staff have thought of, 
but we will include that for the record--that the quality of 
the waters of the Great Lakes is still at risk.
    When I held the first hearings that I chaired in 1985 and 
1986 and 1987 on Great Lakes water quality, we not only found 
that there was pollution resident in the bottom sediments, 
still coming in from the watershed, but airborne from Central 
America. While we had banned DDT in the United States, we were 
still exporting it to Central America for use on banana 
plantations and other crop-growing facilities run by American 
companies in Central America, and the wind currents were taking 
the aerosols into the upper atmosphere and in 14 days, faster 
than the Sandinistas could get to the Mexican border, the 
depositions were in the Great Lakes.
    You remember the time when President Reagan said, in 14 
days, they could be at our borders. Well, in 14 days, DDT was 
being reintroduced into the Great Lakes and having its 
consequential effect on bald eagles and their eggs and 
hatchlings.
    In time, we have made some progress, but now, as we will 
see in the GAO report submitted and to be heard later in this 
hearing, we have fallen back. The purpose of these hearings is 
to make a hard count, a rigorous assessment of where we are, 
what needs to be done and then to set forth with an agenda of 
making further and real progress.
    In the WRDA Bill and in the Coast Guard Bill, we have 
action programs to deal with invasive species. The WRDA Bill is 
now law. We need to get the Corps of Engineers to move on an 
action program. That is going to take some appropriation 
funding. I know Mr. Visclosky will give us help with that and 
Mr. Emanuel as well.
    I salute our congressional colleagues who have urged these 
hearings and Mrs. Miller and Mr. Ehlers who also have been 
vigorous in pressing forth for these hearings, and Mr. Kagen, 
all of whom are sensitive, not only personally to the water 
quality problems of the Great Lakes, but who are being pressed 
upon by their constituents to take action, to deal with not 
only invasive species but the other persistent problems of long 
term residual toxics in the Great Lakes.
    I thought I was going to be brief, but I wasn't. I 
apologize for that. Thank you.
    Ms. Johnson. Thank you, Mr. Chairman.
    The Chair now recognizes Dr. Ehlers.
    Mr. Ehlers. Thank you, Madam Chair, and thank you for 
holding this hearing. I really appreciate it.
    This Nation has five jewels in its crown at the northern 
part of our border, and those five jewels are the Great Lakes, 
tremendous source of fresh, pure water. It is our job to keep 
it pure.
    There have been huge problems with invasive species. We are 
trying to address that through legislation.
    There have been huge problems with toxics as the Chairman 
has referred to. The Legacy Act is helping to clear up the 
sediments, but the airborne toxics are still a problem. In 
addition to DDT from South America, we are getting toxaphene 
from China, the same problem. Even though we have banned these, 
they are still getting into the Great Lakes through air 
transport.
    I am very eager to hear from the agency witnesses about 
what they are doing and, more importantly, about what they plan 
to do as they deal with the issue.
    I am very pleased with the agencies and what they are 
trying to do, but they need more power, more strength and, 
above all, more funding. I want to empower Federal program 
managers with the funding and tools necessary to get the job 
done. That is why I introduced H.R. 1350 along with one of our 
witnesses, Mr. Emanuel from Illinois.
    We are working on this together, a bipartisan bill to put 
into place many of the legislative changes recommended by the 
Regional Collaboration Strategy in 2005, a comprehensive action 
plan developed at the request of President Bush by 1,500 
experts from every level of government as well as scientists, 
ecologists, businessmen and other interested advocates. I have 
never participated with such an enthusiastic group of 
individuals, all very interested in preserving and protecting 
the Great Lakes. We had mayors, governors, Indian tribal 
chieftains, politicians of all levels as well as representation 
from Congress.
    This bill currently has 50 co-sponsors including several 
Members of this Committee and has been endorsed by numerous 
stakeholder groups. I hope that we can take up that bill soon.
    I applaud Chairman Oberstar for his commitment to the Great 
Lakes, and I look forward to working with him on moving Great 
Lakes legislation in the coming year.
    People sometimes underestimate the political effect of the 
Great Lakes, and I simply want to point out that if you add 
together the electoral votes of the Great Lakes States, you 
have nearly a majority of the electoral votes needed to get 
someone elected. I think we should remind our presidential 
aspirants of that fact as well, and I am working with others to 
try to get letters of commitment from them.
    Great Lakes restoration has to be considered a national 
priority, but also this is a new factor here that many people 
haven't thought of. It has to be considered an economic 
stimulus package.
    The Brookings Institution has done us a great favor. They 
have released an economic study that has identified specific 
improvements that are expected through the restoration 
activities recommended in the Regional Collaboration Strategy.
    They estimate that the most prominent benefits will be 6.5 
to 11.8 billion dollars from increased tourism, fishing and 
recreation. They also expect 12 to 19 billion from increased 
commercial and residential property values. These figures do 
not include the multiplier effects that come with any 
Government funding including additional spending by 
contractors, suppliers, employees and so forth.
    They estimate overall something like $50 billion of 
economic stimulus from doing this.
    People simply don't realize. Many people in the United 
States don't realize how large in significance the lakes are, 
roughly $18 billion annually just from the fisheries, both in 
sport fishing and commercial fishing. So we have a real tiger 
up there, the jewels of our Nation as I said, and it is our job 
to sustain them, improve them, protect them, preserve them.
    I really appreciate the opportunity to make these remarks 
and once again, Madam Chair, thank you for having this hearing.
    Ms. Johnson. Thank you very much.
    Dr. Kagen.
    Mr. Kagen. Thank you very much, Madam Chairwoman. I very 
much appreciate this opportunity, and also a thank you to the 
Ranking Member, Mr. Duncan, for holding this hearing today.
    There is perhaps no one else in the room that has studied 
the waterways of the Great Lakes and Wisconsin rivers than the 
current speaker. I have been studying the water for 25 years 
with regard to the aquatic biology, and I can tell you that 
things are not getting much better.
    When I was growing up in Wisconsin, we looked at the Fox 
River. We were afraid to fish there. We were able to walk 
across the water. It would foam because of the paper companies 
and their effluents.
    Today, everyone in this room and everyone in Wisconsin 
understands the great importance of our Great Lakes. They are 
an asset, and we have to be the best stewards possible to 
guarantee that future generations will have that resource 
available to them, not just for economic purposes but just to 
survive.
    We also have to guarantee that the waters within the Great 
Lakes remain within the watershed of the Great Lakes, and I am 
sure we are going to hear testimony to that effect as well.
    I will be very brief in my remarks and welcome the 
testimony of those situated before us.
    Thank you again for holding this hearing and thank you, 
Madam Chairwoman, for having a congressional hearing in April 
in Green Bay to address this issue and others regarding the 
Great Lakes. Thank you and I yield back my time.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mrs. Miller.
    Mrs. Miller. Thank you very much, but I think I will hold 
my opening statement. I know we want to get to the witnesses 
here, but I am delighted to have you hold this hearing.
    Obviously, protecting the Great Lakes has been a principal 
advocacy of mine in the 30 years of public service that I have 
served here, and I am certainly looking forward to hearing all 
of our witnesses particularly my Michigan colleague. Mr. Stupak 
and I have worked together on Great Lakes issues for many, many 
years.
    Thank you.
    Ms. Johnson. Thank you.
    Anyone else wishing to make an opening statement?
    Thank you very much.
    We are pleased to have four very distinguished Members of 
our first panel here this morning. Three are present. First, we 
have the Honorable Peter Visclosky of the First District of 
Indiana. Next, we will have the Honorable Bart Stupak, First 
District of Michigan. Mr. Kirk has not arrived yet. But, 
finally, we have the Honorable Rahm Emanuel from the Fifth 
District of Illinois.
    We are pleased you were able to make it this morning, and 
your full statements will be placed in the record. We ask that 
you limit your testimony to a five minute oral summary of your 
written statements, and I will hold you all to approximately 
five minutes. We will continue to proceed in the order in which 
the witnesses are listed in the call of the hearing.
    Congressman Visclosky.

TESTIMONY OF THE HONORABLE PETER J. VISCLOSKY, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF INDIANA

    Mr. Visclosky. Madam Chair, I appreciate the opportunity to 
be here and for your chairing the hearing today as well as Mr. 
Duncan, Chairman Oberstar and all of the Members of the 
Subcommittee.
    I do understand that my statement will be entered into the 
record and do want to touch upon the national implications of 
the Clean Water Act.
    But prior to doing that, in representing a district that is 
located on the shores of on those Great Lakes, Lake Michigan, 
in a district that also in itself produces more steel than any 
State in the Country and which has located in it the largest 
inland oil refinery in the United States, and all of the 
attendant other industrial facilities, and understanding that 
there will be comments made during the testimony relative to 
some of those facilities, I would just want to be local, if you 
would, for a moment.
    There has been controversy attached to the permitting 
process for the BP refinery in Whiting, Indiana. There has also 
been controversy attached to the permitting process for the USX 
facility in Gary, Indiana, and a suggestion made that the State 
of Indiana has issued a permit threatening the Great Lakes.
    I would point out first of all, as far as the holistic 
picture, that when Governor Daniels took office in 2001, there 
was a backlog of 263 permits which was very regrettable. The 
Governor in his administration has made great strides in 
working through those backlogs, which I think is very 
necessary, to make sure that we ensure our water and air 
quality is good. They now have that number down to 12.
    I would point out to all of the Members who are here that 
controversy has attached to two of those permitting processes, 
but not to the other 249 that the State has pursued, because I 
do believe everyone who lives in Indiana, everyone who 
represents the people of Indiana want to see us continue to 
make progress as far as water and air quality throughout that 
region.
    The controversy, you and I would certainly agree with my 
colleague from Illinois who will raise the issue, is if you 
don't like the law, you should change it, and we are in 
complete agreement for that. That ultimately is the reason that 
the hearing is taking place today, should that bar, 
particularly as it pertains to clean water, be raised.
    In looking over the last half century, we have made great 
strides in improving the water quality of the Great Lakes and 
this Country as a whole. I would also point out that that 
progress came because of congressional action in 1972 with the 
passage of the Clean Water Act.
    Subsequent to the enactment of that bill and over the last 
35 years or so, there has been a marked reduction in the levels 
of toxic chemicals in the air, water, flora, fauna and 
sediment. This improvement is, in no small part, due to the 
many Federal programs established to help fund environmental 
restoration and management activities in the basin. This was 
not through divine intervention. This was through congressional 
intervention.
    I, again, would encourage you in your initiative today to 
raise that bar.
    As far as the principles that are involved, I think first 
of all we must recognize the practicality of new clean water 
legislation and reward and push new innovation. Unfortunately, 
I think sometimes our technical ability to measure particulates 
and other types of pollutants have outstripped our ability to 
remove them, and we ought to reward that technology that gets 
us to where we want to be.
    Second, we must set more rigid standards because we do have 
to push the envelope to continue to clean up the water of the 
Great Lakes, as well as the surrounding air. I do believe these 
standards can accommodate and create new economic development.
    Next, I do believe that the new water quality legislation 
must require everyone to play by the same rules. Improving our 
Nation's and our planet's water quality is too important to use 
it as an opportunity to go back in time and try to restrict 
legislation to a particular region or an industry. Instead, I 
believe a comprehensive approach must be taken that puts all 
private industrial and public discharges under the same 
standards within their respective classes regardless of where 
they might be within the water basin.
    Madam Chair, you mentioned the funding gap. I would point 
out that while heavy industry has been focused on, and it 
clearly remains a problem as far as advancing our water 
quality, many of the problems facing our supply of fresh water 
lie with public treatment facilities. Unfortunately, as you 
point out, many of these communities have limited financial 
resources to upgrade their water treatment facilities. The 
problem is particularly acute in the Great Lakes Basin, as 
evidenced by the prevalence of Great Lakes States near the top 
of EPA's 1996 Clean Water Needs Survey. This is why I do 
applaud this Subcommittee's leadership and all of the Members 
in shepherding the passage of H.R. 720, the Water Quality 
Financing Act of 2007.
    Water quality is a health issue. It is an environmental 
issue. It is an economic development issue, and it affects 
everyone's quality of life.
    I do believe that now is the time to raise the bar and to 
enact new water quality legislation that will allow our 
communities and future generations to prosper.
    I, again, appreciate the opportunity to be here today and 
to congratulate the Chair, the Ranking Member and all of the 
Members of the Committee for your initiative and taking the 
time.
    Ms. Johnson. Thank you very much.
    Mr. Stupak.

  TESTIMONY OF THE HONORABLE BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Chairwoman Johnson, and thank you, 
Chairman Oberstar and Mr. Duncan, for holding this hearing.
    For most people, water is a very important issue and it 
becomes a greater issue each and every day. If we look at some 
facts about water and water use, the recommended basic water 
requirement for human domestic needs is 13.2 gallons per day, 
yet the U.S. and Canada consume 100 gallons per day per person. 
Statistics show that every 20 years, the demand for water is 
doubling.
    In the Great Lakes, we consume about 5 percent of the water 
and we turn 95 percent of the water we use back into the basin. 
In the arid western States, they consume about 90 to 95 percent 
of the water and return about 4 or 5 or maybe even 10 percent.
    By 2025, the World Bank predicts more than 3,000,000,000 
people in 52 countries will suffer water shortages. Water will 
be the most valuable commodity and most sought after commodity 
in the world, and the wars of the 21st Century will be fought 
over water, not oil.
    So, since I have come to Congress, I have made it a mission 
of mine to protect and promote our Nation's Great Lakes. When 
we first got here, NAFTA was the issue. I raised the issue that 
water could become a commodity under the NAFTA agreement.
    Together, we have stopped the Nova Group from selling or 
diverting Great Lakes water to China. We have stopped drilling 
for oil and gas in and under the Great Lakes.
    We have been urging Michigan, especially Michigan, and 
other States to develop comprehensive water use programs. We 
have stopped the discharge of partially treated human waste 
into our lakes, rivers and streams.
    Currently, I am a Co-Chair of the Water Caucus, a caucus we 
have just started.
    Why have we done all these things? Because 45 million 
people depend on the Great Lakes for drinking water, jobs, 
transportation, agriculture and energy.
    If you just think of the domestic steel industry, there 
would be no domestic steel industry without the Great Lakes 
because we need those lakes to move the ships to move that 
tonnage to produce our steel in this Country. That is a $4 
billion industry to our Nation alone, the steel industry.
    In December of 2004, a collaboration of Federal, State, 
local and tribal government officials and private sector 
stakeholders formed a comprehensive strategy for restoring the 
Great Lakes called the Great Lakes Regional Collaboration, and 
I think most of us from the Great Lakes are on that bill. It is 
a bipartisan bill. It is H.R. 1350, the Great Lakes 
Collaboration Implementation Act.
    As we have seen in recent months and we have seen in many, 
many elections, candidates running for President all promise 
resources to protect the Great Lakes but, unfortunately, like 
President Bush, they failed to provide the resources necessary 
to improve the Great Lakes in their annual budgets. 
Nonetheless, I look forward to working with Members of this 
Committee to address our shortfalls and needs in the Great 
Lakes.
    A major source of Great Lakes pollution is inadequate 
wastewater treatment plants. Many of the Members have spoken 
about it, but let me give you one example.
    Up in my district, I have Sault Sainte Marie, Canada on one 
side and Sault Sainte Marie, Michigan on the other. In between 
is an island called Sugar Island. For three summers, the 
residents of Sugar Island have not been able to use their 
beaches, have not been able to go, even walk in the sand 
because of E. coli, chloroform and other bacteria.
    What is the source of that pollution? Many of us feel it is 
the water treatment plant in Sault Sainte Marie, Canada, where 
they are only required to treat the human waste once before it 
is discharged. On the Michigan side, we treat it three times 
before the waste is discharged.
    Fortunately, Sault Sainte Marie, Canada has put on a new 
wastewater treatment plant. We hope, and we will have to wait 
until this summer to see if our beaches will begin to clean 
themselves.
    But it is not just Sault Sainte Marie, Michigan or Ontario. 
It is throughout the Great Lakes, this vast region. Some treat 
their waste one time. Other communities will treat it three 
times.
    But across the Great Lakes Region, as a whole, waste water 
systems are deteriorating. They have not kept up with the 
demands. So that is why you see sewers that still combine sewer 
overflows when you have a big storm. We are dumping more 
garbage and waste and pollutants into our lakes, rivers, 
streams, and the Great Lakes because we haven't separated the 
rain water from the water we use.
    It is no wonder why the EPA continually, in the last 
administration and this administration, requests that during 
so-called times of emergency, which seems to be every other day 
in the Great Lakes, that they be allowed to discharge 
pollutants, partially treated human waste into our Great Lakes 
because the infrastructure can no longer handle it and they are 
afraid of the effects of failure of the whole system on our 
Great Lakes shores.
    Fortunately, through the work of many in this Committee, we 
were able to stop that issue of allowing the EPA to routinely 
allow for the discharge of waste, human waste, into our Great 
Lakes. But there are also other pollutants. In Michigan right 
now, we are trying to pass a ban on phosphorus from coming into 
our Great Lakes. Many domestic products use phosphorus.
    I hope we would consider banning phosphorus discharges into 
our rivers and our treatment plants at the Federal level. Once 
discharged into water, phosphorus causes excessive growth of 
algae. It robs our water of the oxygen which fish need to 
survive.
    I think my time is up. I will submit my statement, but I 
have so much more I could talk about the Great Lakes. As I 
said, it has been one of my main missions since I have been 
here in Congress.
    I look forward to working with this Committee. Anything we 
can do to help and assist and clean up the Great Lakes, I am 
more than willing to do. Thank you for allowing me to testify.
    Ms. Johnson. Thank you very much.
    Mr. Kirk is not here yet, I don't think. So we will go on 
to Mr. Rahm Emanuel.

 TESTIMONY OF THE HONORABLE RAHM EMANUEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Emanuel. Thank you, Madam Chairwoman. I want to thank 
the Full Committee and all the Members for holding this hearing 
and on this very important subject.
    I remember when I grew up in Chicago: we used to swim in 
Lake Michigan, and there would be nothing but dead fish that 
would come rolling in on the sand and in the first 35 feet of 
water.
    The Clean Water Act made a significant difference because 
when I was growing up we used to run past the dead fish, 
holding our breath, jump in the water with a breath, go under 
the water and swim past all the dead fish as far as you could 
and come up. That is different, dramatically different from the 
present day, and you can point to one single act. The Clean 
Water Act made a dramatic difference in the water quality 
today. There is no doubt about it.
    But we are in the crosshairs, basically. Both Members of 
the Committee and the panel talked about the fact that now we 
are slipping from some of that progress that we had made after 
30 years of full investment.
    The question before us is what are we going to do to build 
on the shoulders of the original Clean Water Act, and basically 
have a Clean Water Act, Stage II, that plans for the next 30 
years? As my colleague from Michigan, Bart, noted, the future 
wars are going to be about water. In the next 10 years, 35 
countries are going to run out of water.
    We are sitting on top of a quarter of the world's fresh 
water. It is our future, and we hold one of the most important 
resources. Will we invest in our Yellowstone, our Grand Canyon 
with the same sense of not only its beauty but its potential, 
in the same way that we have done with our other national parks 
and national resources? We are sitting here, and that is really 
the question.
    My colleague from Indiana is absolutely correct in the 
sense of what Indiana has done in dealing with the backlog, and 
they, including the Governor, have done it appropriately.
    We have two issues. In the last 30 years--I talked about 
the Clean Water Act--the major pollution factor in the lakes 
was industrial. Today, it is urban runoff. As he noted, what 
the real investments have to do is deal with that treatment, 
mainly urban but also industrial.
    I do have questions about how the process worked both on 
the Whiting facility and now what U.S. Steel wants to do. And I 
am not the only person. Indiana has done what they are supposed 
to do on behalf of Indiana.
    But the Great Lakes is not Indiana's. It is not Illinois'. 
It is not Michigan's. It is not Canada's. It is not 
Wisconsin's. It is all of ours. This is why we had the GLI 
standards approved in 1996 that set a standard for all of us: 
so no one State could do what it wanted, in only its own 
interest.
    I do believe that those were the proper points of finding a 
blend between what my colleague from Indiana needs to do on 
behalf of his constituents who use the lake, and also need the 
drinking water and water for their jobs, and what all of us 
need in the sense of what the lake can provide us.
    We can do it. It is a hard issue. A lot of our constituents 
are emotional about it. Even sometimes a short Member from 
Chicago can get emotional about it.
    But the fact is my colleague from Indiana is doing what he 
needs to do and I believe I am doing what I need to do, not 
only for my constituents but for the lake as a whole. Because 
if we do the right type of investments today, the Great Lakes 
will be an amazing resource for the United States when the rest 
of the world is running out of fresh water.
    We have to see this not as some oversized pond that you can 
dump pollution in, but these are Lakes Michigan, Erie, Huron, 
Ontario, and Superior. These are the Yellowstones. These are 
the Grand Canyons. They are filled with great resources, and 
they are not just for fishing and for other types of sports-
like activities or simply beaches. They are a great human 
resource.
    We are the crossroads of a Clean Water Act, Stage II, and I 
think we have two things in front of us: A, enforce the laws 
that are on the book fully and B, develop the comprehensive 
legislation and the resources behind it to build on the 
shoulders of the Clean Water Act. This Clean Water Act, Stage 
II, would project into the future like the Clean Water act did 
in 1972. That Act got us to the point that kids today, when 
they are on the beaches, are no longer running past dead fish, 
holding their breath for 30 feet under water. They swim in 
there. My kids swim in there every summer.
    The question is what do we see down the road and then point 
our legislation and our resources towards that vision. I think 
if we work together, we can get there.
    I thank you again for holding this hearing and bringing 
these issues to the forefront.
    Ms. Johnson. Thank you very much.
    Let me thank our first panel and say that I look forward to 
working with you to see if we can come up with a little money 
to help you_as long as you furnish 80 percent.
    Mr. Oberstar. Madam Chair, a comment before you dismiss 
this panel. All of you have spoken very thoughtfully and with 
deep passion and conviction about the Great Lakes, the treasure 
it is, as my Committee colleagues also have done.
    Mr. Emanuel, I am taken by your thought of a Clean Water 
Act, Stage II. I am sure I noticed a smile coming out of my 
predecessor, John Blatnik in his portrait in the corner, the 
originator of clean water legislation in 1956, the Federal 
Water Pollution Control Act and all the subsequent amendments 
including the Clean Water Act itself.
    It strikes me, and you have acknowledged it, that the 
enforcement of the existing law is our first challenge--we will 
hear from GAO about deterioration of that enforcement over the 
last few years--and also of a lack of funding. Mr. Visclosky is 
in the position to best guide us on the investments that could 
be made, through the Energy and Water Appropriations 
Subcommittee, and in how we might best mobilize our forces in 
the Great Lakes to direct the funding that we need to the 
renovation of wastewater treatment facilities, to treatment of 
the contaminated bottom sediments in the Areas of Concern. 
These are often the harbors located principally in the Great 
Lakes, where the waterways discharge into the lakes.
    Then I was touched by Mr. Stupak's comment and yours, Mr. 
Emanuel, of swimming under the dead fish. My God, I thought we 
only did that in Chisholm, my hometown, where the city fathers, 
for a few years, allowed the sewage treatment plant to 
discharge into our lake. How many towns have a lake right in 
their midst and have done that? That bunch was routed out by 
the voters and we built a sewage treatment plant.
    But let us also look further on down the Lakes, at the 
discharge point of Lake Ontario into the Niagara River. In 
1987, in hearings I held in this room, Dr. Henry Lickers, an 
elder of the Akwesasne Tribe also known as the Mohawks, who is 
a Ph.D. pharmacologist, testified that the people of his tribe 
who had been healthy for 2,000 years were suddenly coming up 
with tremors in their joints, with three times the national 
average of spontaneous miscarriages, with three times the 
national average or cancers. When he began the inquiry into the 
causes, he found that there were dioxins, mercury, lead and DDT 
in the food they were taking in, principally from the fish_even 
though they had been fish -eaters and -sellers for 2,000 years.
    I asked him, ``what did you have to do?''
    He replied, ``we changed our eating habits and, to gain the 
protein we were getting from fish, we switched to meat.''
    ``And then what happened,'' I asked.
    He replied, ``then we had three times the national average 
of arterial sclerosis, heart attacks, stroke and diabetes.''
    That's because all the toxics from the Great Lakes 
concentrate there on the outlet into the Niagara River.
    Now we have it within our power to do something about it. 
That means making some investments. Already, municipalities 
have invested in excess of $10 billion on the U.S. side of the 
Great Lakes, and industry, another $15 billion, but the needs 
are still enormous.
    We have moved through the House--you all voted for it--the 
restoration of funding for the Clean Water Revolving Loan Fund 
for States. This revolving loan fund was originally enacted to 
replace the grant program of the Clean Water Act. Now the other 
body hasn't moved on that legislation, but we still have it 
within our power to increase funding under the existing law.
    I would like to get an assessment from Mr. Visclosky 
whether that is realistic under the budget assumptions that are 
pending before us.
    Mr. Visclosky. Mr. Chairman, I haven't seen the 2009 budget 
request and obviously do not know what the final budget 
resolution will be.
    But thinking about your remarks, I would suggest all of the 
Members who are committed to seeing the resources that are 
necessary to be brought to bear intervene with the presidential 
candidates of both parties so that whoever wins puts money in 
the budget. Everyone on the Committee understands that if it is 
not in the administration budget, you are constantly digging 
yourself out of a hole. Again, as everybody on this 
Subcommittee most clearly understands, it traditionally has 
been a bipartisan failure, as far as under-funding water 
resources and water investments.
    We really need to convince the next administration, 
whomever that President may be, that they have to put that 
money in their budget. I haven't been in Washington so long as 
to not understand that some hundreds of millions of dollars is 
not a lot of money.
    I would point out over the last couple of years that Dave 
Hobson, who is my Ranking Member, and who was my Chairman for 
four years, has done an excellent job in leading the way as far 
as a five-year plan for the Army Corps of Engineers. For 
example, you know where you are going to go and you have some 
guide slope, so that investment can be put to good use.
    Just talking to Mr. Stupak, before we began, we have 
critical needs here that are going to continue to be unfunded 
unless somebody starts at least giving us a higher base on 
which to work. So that would be my answer, if you would, to 
that question.
    Mr. Oberstar. Well, that is a very thoughtful response and 
an appropriate one.
    We are at the point where we, as John Blatnik, my 
predecessor once said in exasperation--and he was a 
biochemist--to a panel sitting before the Committee: I am tired 
of you scientists holding up test tubes and saying, yes, that 
water is polluted. Look at it. Look at all this. Put it under a 
microscope and look at it.
    We have to start doing something about it. We have done 
some, but we have to attack the invasive species through an 
enforcement program. We have to get after the bottom sediments 
in an enforcement program. We have to get after existing 
industries that are continuing to evade the law with an 
enforcement program.
    Mr. Emanuel, don't you think that?
    Mr. Emanuel. That is a leading question, but the answer 
would be yes.
    I just wanted to say to your point and to my colleague from 
Indiana, Senator McCain, Senator Clinton, and Senator Obama 
have all three signed pledges that they would push for the 
Great Lakes Restoration Act and comprehensive legislation. That 
doesn't mean A, when they got there, they would follow up, or 
B, that their budget would reflect that, but we have their 
signature on a piece of paper. To date, never in this process 
have we ever been there and done that before. So we are, I 
think, a little farther ahead.
    The second thing is, I would argue, and this is straight 
politics and politics is not far from policy, we did the 
Everglades restoration in the late nineties. They got nine 
billion bucks.
    I hate to say this, but we have a lot more electoral power 
in the Midwest if you just did it by votes. I think we have 
never, as a group in the Midwest, from New York all the way 
through to Minnesota and down, ever marshaled those political 
resources to fight for the resources that our region needs, 
whether that is the revolving fund or a comprehensive 
legislation. It is not us versus the Everglades, but they are 
nine billion bucks ahead of us.
    As far as I can see and I sometimes do politics on the 
side, we are where the game is going to be in the presidential 
year. I think we, as a group, Democrats and Republicans alike--
while we may disagree on other things--most make sure our 
nominee fights when they come through the Midwest, talking 
about the resources, and holding their feet to the fire. 
Because if we have them on record in this process, then we can 
hold their budget to their rhetoric.
    Mr. Oberstar. Well, that is important. I am glad you raised 
that.
    Mr. Emanuel. I wouldn't want politics to influence policy 
in any way, Mr. Chairman.
    Mr. Oberstar. Far be it from the political process, but 
lest it fail us, we have a process now. Whatever these 
candidates say, that is two years off from a budget standpoint. 
We have a budget cycle now in front of us, and the current 
Administration is not irrelevant. They have a responsibility.
    I will withhold further comments. Mr. Kirk is here and, 
Madam Chair, I think you want to recognize Mr. Kirk and have 
his statement.
    Ms. Johnson. Yes, thank you very much.
    Mr. Kirk now has arrived. Would you like to proceed with 
your testimony?

 TESTIMONY OF THE HONORABLE MARK STEVEN KIRK, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Kirk. Thank you, Madam Chair. I have a prepared 
statement which I would like to submit for the record and 
summarize briefly.
    I am here backing legislation supported by a number of 
prominent Democrats, my colleague from Illinois, Rahm Emanuel, 
Dan Lipinski, Mayor Daley, but also a bipartisan concern, 
Congresswoman Miller, Congressman Ehlers, et cetera.
    Let me mention two big issues in quick summary. Number one, 
Congressman Emanuel and I joined with the Alliance for the 
Great Lakes to get the Great Lakes commitment by the 
presidential candidates. If you go by today's polls, then the 
leaders of both parties have now signed the Great Lakes 
commitment, and that is an important promise that we will hold 
them to later.
    The issue that I would like to focus on today beyond the 
global issue of funding for the Legacy Act, cleaning up 
polluting harbors, funding for the Restoration Act which 
Congressman Emanuel and I, which is looking at the Great Lakes 
as a comprehensive ecosystem, is to turn the attention of this 
session of Congress on sewage dumping in the Great Lakes, a 
critical issue.
    Congressman Lipinski and I have joined together to propose 
bipartisan legislation to set a Federal date certain on banning 
all sewage dumping in the Great Lakes.
    You know the numbers: 95 percent of the fresh water of the 
United States, the source of drinking water for 30 million 
Americans.
    When you talk about the practicality of instituting a 
dumping ban, you have to go to some of the major municipalities 
and ask when could you accomplish this critical objective. In 
negotiations with Mayor Daley, we set a final date of 2027 of 
which the City of Chicago being the largest municipality on the 
Great Lakes to completely ban all dumping. So that is the basis 
of this legislation.
    When we talk about the problem overall, let me give you the 
two big numbers in this issue. Twenty-four billion gallons of 
sewage are dumped into the Great Lakes each year.
    When I originally looked at this problem, I was worried 
about my own communities which have a no dumping policy almost 
always adhered to except during catastrophic storms. I looked 
at the City of Chicago which now generally goes a full decade 
between catastrophic events, and we are laying the groundwork 
to end that.
    I originally thought the big bad guy here was Milwaukee 
which two years dumped four billion gallons of sewage directly 
into the lake, of great concern to Illinois because the current 
runs from Milwaukee to Illinois and of great concern.
    But I will have to highlight the big bad guy here is the 
City of Detroit. Of the 24 billion gallons of sewage dumped in 
the Great Lakes each year, 12 billion are the City of Detroit 
alone, and that is unfortunate for this reason.
    As Members of this Subcommittee well know, the Federal 
Government in general will pay up to two thirds of the cost of 
upgrading a sewer system to make sure that a responsible 
environmental policy can be adhered to. Nearly all Great Lakes 
communities take advantage of those Federal funds to make sure 
that they are good environmental stewards of the lake.
    But what does the Federal Government do which is 
responsible for relations between the States and our relations 
with our Canadian allies when a community won't even come up 
with the one third match? Even though the Government is 
offering to pay an overwhelming majority of the bill, what 
happens when they fail to invest in becoming a good 
environmental steward? I would say that that is probably the 
example of Detroit.
    In Chicago, we built the Deep Tunnel now over 100 miles 
long on the principle that we should not dump in the lake and 
therefore should handle stormwater. As one engineer put it, 
Milwaukee built the not so deep tunnel, and so they get 
regularly overwhelmed. There is no such facility that can 
handle Detroit's mess.
    In the end, I think that the Kirk-Lipinski legislation is 
critical. We need to offer the resources as this Committee has 
been a strong advocate to do, but in the end there has to be a 
Federal date certain so the committees take that to act and we 
all, including the City of Detroit, become responsible stewards 
of what I think is one of the precious ecosystems in the United 
States.
    I thank you for the chance to talk to you today.
    Ms. Johnson. Thank you very much.
    The Chair recognizes Mr. Duncan.
    Mr. Duncan. We always have followed a policy in this 
Subcommittee of not questioning Members panels because we have 
a chance to talk to them at other times and also because we 
know they need to get on to other things, and I am not going to 
violate that policy now, but I will say this.
    As I mentioned in my opening statement, we have passed more 
than 30 laws specifically aimed at the Great Lakes, most of 
which have been passed, as Chairman Oberstar noted, since 1956 
and the most significant of which was the Great Lakes Legacy 
Act in 2002. We now have 10 Federal agencies working on this 
and 140 different Federal programs and 200 funding sources, 
counting State and local sources.
    So what I am getting at is I think that what we need to 
look at in these hearings and what we need from the Members and 
their staffs, including the Members who just left and others if 
they have staff members here, is we need to know which of those 
programs are working or are accomplishing things and which 
aren't.
    We need to know, these Federal agencies, are they just 
talking to each other or are they actually doing something 
because I can tell you there is nobody on this Committee who 
doesn't want to do more on this problem, but we need to find 
out what is effective and what is not, what is actually 
accomplishing something and what is not.
    Of all the hearings I have sat through on the Great Lakes, 
maybe I missed it before, but I have not heard the statistic 
from Mr. Kirk that you just said about Detroit. That is 
something. It is pretty amazing when I heard a few months ago 
that Detroit's population had gone down from two million a few 
years ago to 800,000. So it is almost hard to believe that they 
are producing that much waste, but something sure needs to be 
done on that.
    We need some help on finding which ones of these 140 
Federal programs are working and which ones aren't, and maybe 
we can take the funding from some that aren't doing much and 
put more funding towards the ones that are effective.
    Thank you.
    Ms. Johnson. Thank you very much.
    Mr. Chairman.
    Mr. Oberstar. Madam Chair, I want to thank Mr. Kirk, our 
colleague, for his very thoughtful statement, well prepared and 
well presented and with very heartfelt emotion in delivering 
it. I appreciate that. We see many people come here, read 
something rote, and leave without much of an impression, but 
you make a strong impression.
    In the Clean Water Act of 1972, we set the goal of 1985 to 
achieve fishable-swimmable status for the waters of the United 
States, coming to a point Mr. Duncan raised just a moment ago. 
In fact, in that Act, there were 132 deadlines, dates by which 
certain things had to be accomplished. Every one of those 
deadlines was missed for one reason or another.
    We have to find out, and we have a pretty good idea 
already, which programs are working, which aren't and why, and 
fix them. I think you are committed to doing that.
    I like your idea of a goal, a date. Even though, in setting 
such a date, we have to be realistic that it might not be 
achieved. But if we don't set a date, then we will never get 
there. That is why all those deadlines in the Clean Water Act 
were of importance because they were like a blowtorch on the 
agencies to say get going, shape up, come back to Congress and 
report to us why you didn't get there.
    I think Mr. Visclosky feels the same way.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Any other statements for this panel?
    Thank you very much for coming.
    The second panel will be Mr. David Maurer, Acting Director 
of the Natural Resources and Environment Division of the 
Government Accountability Office and the Honorable Irene 
Brooks, Acting Chair of the United States Section of the 
International Joint Commission and accompanying Chairwoman 
Brooks is United States Commissioner for the International 
Joint Commission, Mr. Allen Olson.
    As I noted to the first panel, Mr. Maurer and Chairman 
Brooks, your full statements will be placed in the record, and 
we ask that you try to limit your testimony to five minutes.
    The Chair now recognizes Mr. Maurer and thank you for 
coming this morning. You may proceed with your testimony.

 TESTIMONY OF DAVID MAURER, ACTING DIRECTOR, NATURAL RESOURCES 
AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE AND THE 
 HONORABLE IRENE BROOKS, ACTING CHAIR, UNITED STATES SECTION, 
    INTERNATIONAL JOINT COMMISSION OF THE U.S. AND CANADA, 
   ACCOMPANIED BY COMMISSIONER ALLEN I. OLSON, UNITED STATES 
 SECTION INTERNATIONAL JOINT COMMISSION OF THE U.S. AND CANADA

    Mr. Maurer. Great. Thank you very much.
    Good morning, Madam Chairwoman and Members of the 
Subcommittee.
    I am pleased to be here today to talk about our work on the 
Great Lakes Initiative. As you know, the GLI is a broad, 
ambitious and important effort with significant implications 
for the millions of people in the United States and Canada who 
rely on the Great Lakes for their drinking water, for their 
source of recreation and for their economic livelihood.
    One important aspect of the GLI is the ongoing effort by 
EPA and the States to control so-called bioaccumulative 
chemicals of concern or BCCs. These are chemicals such as 
dioxins or PCBs that when released into the environment do not 
readily break down. They build up in soil, sediments and plants 
and accumulate in fish, animals and people.
    Through the GLI, the EPA has established stringent water 
quality criteria for nine BCCs. My statement today primarily 
focuses on these nine BCCs and is based on our July, 2005 
report on the GLI. In that report, we recommended that EPA take 
a series of actions to better ensure full and consistent 
implementation of the GLI.
    As you requested, in preparation for today's hearing, we 
obtained updated information from EPA and the Great Lakes 
States on three issues: first, the status of EPA's efforts to 
develop an approve methods to measure pollutants at the GLI 
water quality criteria levels; second, the use of permit 
flexibilities which allow users to exceed GLI water quality 
standards; and, third, EPA's progress implementing the 
recommendations from our July, 2005 report.
    My bottom line this morning is this: EPA and the States 
have made progress, but there is a long way to go before the 
water quality standards in the GLI are achieved.
    I will now briefly summarize our three main points. First, 
EPA remains unable to regulate most BCCs to GLI standards 
because it lacks approved methods capable of measuring them in 
sufficiently small quantities. In other words, EPA can't 
regulate what it can't accurately measure.
    Now, to be fair, this can be a very difficult thing to do. 
EPA is on the hook to approve methods for detecting BCCs to the 
nanogram per liter level. In plain English, that is finding one 
in a trillion. That speaks volumes about both the potential 
risks from BCCs as well as the technical challenges in 
detecting them.
    Currently, EPA has approved methods that measure down to 
the GLI criteria for only two of nine BCCs, mercury and 
lindane. As a result, States are not including GLI-level 
discharge limits for most BCCs in their permits for industrial 
and municipal users who discharge into the Great Lakes Basin. 
This is a significant barrier to fully achieving GLI's goals.
    There has been some progress on this front. EPA approved a 
more sensitive method for mercury in 1999. As States began 
using this method, they discovered many facilities were 
exceeding the mercury standard and began including mercury 
limits in user permits. As a result, many more facilities are 
now required to limit their mercury discharges.
    EPA officials told us they expected a similar rise in 
permits with discharge limits when detection methods for PCBs 
are approved.
    However, progress in this area is partially offset by our 
second set of findings. Mainly, the GLI allows States to use 
flexibilities that permit facilities to exceed GLI water 
quality criteria. This gives States the option of offsetting 
the potential economic or social impacts of requiring 
businesses and municipalities to meet GLI requirements.
    We found that States frequently take advantage of these 
flexibilities. For example, the vast majority of State permits 
with mercury discharge limits also had flexibilities.
    The GLI also allows the repeated use of some flexibilities 
and does not set a time frame for facilities to meet the GLI 
water quality criteria. As a result, EPA and State officials 
could not tell us when the GLI criteria will be met.
    Finally, EPA has taken some actions to implement the 
recommendations in our 2005 report. For example, EPA has 
implemented our recommendation to fully develop a GLI 
clearinghouse and share it with the States. The clearinghouse 
is a database of information on hundreds of chemicals which 
helps assist States in developing water quality standards.
    EPA has also begun to track the progress of the GLI 
implementation. However, its efforts have been limited to 
mercury discharges from municipal wastewater treatment plants. 
As a result, EPA continues to lack the information it needs to 
adequately assess progress in meeting GLI goals.
    In closing, although EPA and the States have made some 
progress in some areas such as mercury detection, they still 
have a long way to go before the water quality levels in the 
GLI are achieved. EPA remains unable to regulate most BCCs to 
the GLI levels, and extensive use of permit flexibilities could 
continue to undercut reduction in pollution levels and the 
ultimate achievement of GLI's goals.
    Madam Chairwoman, this concludes my statement. I would be 
happy to respond to any questions that you or Members have. 
Thank you.
    Ms. Johnson. Thank you very much.
    Ms. Brooks.
    Ms. Brooks. I am Irene Brooks, Acting chair of the U.S. 
Section of the International Joint Commission. I am very 
pleased to be here with my colleague, U.S. Commissioner Allen 
Olson. We are joined by our colleagues from Canada, the Right 
Honorable Herb Gray, Chair and Dr. Jack Blaney, Commissioner.
    In both the United States and Canada, millions of people 
draw material and spiritual sustenance from the Great Lakes. 
Today, the basin's residents want to know that their priceless 
lakes, both in their majesty and their mystery, will be there 
for future generations just as they have been there for them.
    We are very proud of the role of assisting the governments 
in implementing the Great Lakes Water Quality Agreement, 
alerting them to emerging issues and assessing their progress 
as they work to restore and maintain the chemical, physical and 
biological integrity of the waters of the Great Lakes Basin.
    Here is our latest assessment. The lakes today are less 
polluted than they were decades ago. The toxic human, animal 
and industrial wastes as well as pharmaceutical and airborne 
substances continue to pollute the lakes. Ongoing urban 
development, invasive species and climate change present 
further challenges.
    Therefore, we have declared today, as we have before, that 
the power of the vision captured in the agreement has generated 
neither enough action nor full recovery. That is why the 
Commission believes the time has come to make bold binational 
commitments and to accelerate actions to restore and protect 
the Great Lakes
    Today, we focus on four specific shortcomings:
    First, while progress towards cleaning up the Great Lakes 
has been significant in many areas, further gains are hampered 
by a lack of accountability, blurred lines of responsibility, 
lack of vigorous implementation and inadequate funding. 
Moreover, actions to address new threats such as invasive 
species are too slow and too scattered to be effective.
    Second, information needed to assess progress is often not 
available from governments to the Commission and monitoring 
programs are under-funded, missing or inconsistent across the 
basin. Moreover, governmental reporting on Great Lakes water 
quality, as required by the agreement, is inadequate and 
sometimes nonexistent.
    Third, the current agreement does not provide for the 
players with the greatest interest in cleaning up the Great 
Lakes to be at the table.
    And, fourth, the current agreement is inadequate to meet 
present and emerging challenges. It must be replaced with a 
new, action-oriented agreement signed by the President and the 
Prime Minister and endorsed by the U.S. Congress and the 
Canadian Parliament.
    Our view is that to speed up the cleanup, accountability is 
paramount. Responsibility for actions must reside in the 
highest levels of both governments with both countries making a 
bold commitment to specify achievable goals and a set timetable 
to restore water quality in the Great Lakes so that fish are 
safe to eat, water is safe to drink and beaches are safe for 
swimming.
    For example, it appears that the invasive zebra mussel has 
effectively re-engineered physical and chemical processes in 
the near-shore area, promoting eutrophication and degrading 
water quality. Algae mats, closed beaches and dead birds are 
unmistakable signs of water quality problems that are serious 
in most areas of the Great Lakes. Our written testimony details 
steps for binational action to address this urgent concern.
    Finally, the Commission observes that while some see the 
Great Lakes as marking the boundary that divides our countries, 
we see them as the lifeblood connecting us. Indeed, pollution 
knows no boundaries. So, action to clean up the Great Lakes and 
clean them must be uncommonly strong, binational and immediate.
    Ultimately, accountability will only be achieved to the 
extent that the national governments of the United States and 
Canada take action. We are here today to tell you that the 
International Joint Commission is ready to help you act with 
urgency, vision and focus to get the job done.
    Thank you very much.
    Ms. Johnson. Thank you very much.
    Mr. Boozman.
    Mr. Boozman. Ms. Brooks, we know that everyone wants more 
funding. Is it possible to do more with the funding that we 
have? Alternatively, is it possible for the Great Lakes to 
decide to dedicate existing Federal assistance to Great Lakes 
restoration efforts?
    Ms. Brooks. Well, our figures are that it will cost $7.4 
billion to clean up our areas of concern. Thus far, it has been 
inadequate funding to clean them up. We have 43 total, and only 
3 have been de-listed.
    Mr. Boozman. Tell me about the panel. Congressman Kirk 
mentioned the large discharge from Detroit. Are those kinds of 
discharges, are those allowed under current law?
    Ms. Brooks. That would be under the EPA. We certainly have 
a responsibility for water quality, but unless we know the 
information data which is shortcoming, we can't assess the 
impact.
    Mr. Boozman. Okay. Thank you very much.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you.
    Chairman Brooks, you said in your testimony that the Great 
Lakes Water Quality Agreement is no longer working. What is the 
climate between the Canadian national government and the U.S. 
for revising the Great Lakes Water Quality Agreement to address 
the challenges that you have identified?
    Ms. Brooks. The time line? I am sorry. I didn't understand 
that.
    Ms. Johnson. Receptivity.
    Ms. Brooks. We are assisting both governments in giving 
them our advice on what we feel should be in the agreement. We 
feel there should be a new agreement rather than an amended 
one. We feel the times have changed, conditions have changed, 
that we need a simple, direct agreement accompanied with a plan 
that can be flexible and include more people, bring more people 
to the table such as municipalities and tribes.
    Ms. Johnson. How is that?
    Mr. Olson. If I may, Madam Chairwoman, we reflect a 
complete international approach to the issue. We don't 
represent the respective governments, but the six of us, three 
Canadian and three U.S. commissioners, take separate oaths to 
uphold the Boundary Waters Treaty of 1999. So we do represent a 
completely binational, international approach, but we don't 
represent the respective governments.
    Ms. Brooks. The only thing I would add is that both Federal 
Governments are undergoing a review process now to determine 
whether or not there indeed needs to be a review. They have not 
made that decision yet.
    Ms. Johnson. Are you near an agreement of a recommendation 
for improvement?
    Ms. Brooks. Improving the agreement?
    Ms. Johnson. Or a new one.
    Ms. Brooks. A new one. We recommend that there be a new 
one, a new agreement between the governments, signed by the 
President and Prime Minister and approved before Congress and 
Parliament to strengthen it.
    Ms. Johnson. Where are you in attempting to get that 
accomplished?
    Ms. Brooks. We are in the process. We have given our advice 
to the governments. We are also in the process of exploring 
near-shore issues to give additional information and advice to 
the governments on near-shore issues to be included in the 
agreement. We feel that is important.
    Ms. Johnson. Thank you.
    Mr. Maurer, after listening to your testimony, my 
understanding is that if EPA has not developed a detection 
methodology for a given BCC, like PCB's, for example, there is 
no GLI permit limit. Is that correct?
    Mr. Maurer. That is right. If there is not an approved 
detection method, they can't issue the permits down to the GLI 
level. It may still be regulated at higher levels. You may have 
other ways to try to get the most technologically feasible 
level, but it won't be reduced down to the level envisioned in 
the GLI.
    Ms. Johnson. So that means PCBs are not regulated?
    Mr. Maurer. They are not regulated at the GLI level which 
is the stringent standard set by the EPA.
    Ms. Johnson. If they are regulated, what levels are they 
regulated at, or, in other words, do facilities on the Great 
Lakes have any permit limit for the PCBs at all?
    Mr. Maurer. I don't know specifically the levels for PCB's. 
But, in general, depending on the chemical, there are 
requirements and permits established by the States that require 
facilities to reach the most technologically feasible level. 
They are not going to get down to the GLI level, but there are 
requirements that they do as best they can.
    I think our concern is that if they are not reaching the 
GLI level, the GLI's requirements are not going to be met.
    Ms. Johnson. Is the level protective of human health and 
the environment?
    Mr. Maurer. Well, I think the real worry is that when EPA 
established the GLI levels in the mid-1990s, they set it at a 
level where they felt was a relatively safe level for PCBs in 
the water. We are not quite there yet because they don't have 
the approved methods that can measure sufficiently minute 
quantities of PCB's.
    I think EPA is probably in a better position to talk about 
specifics of the regulatory regime. In general, though, it is 
set by EPA and implemented by the States.
    Ms. Johnson. Thank you.
    Mrs. Miller.
    Mrs. Miller. Thank you, Madam Chairman. Again, I want to 
tell you sincerely how much I appreciate your calling this 
hearing today.
    I have to tell you the truth. I have been involved in 
public service about 30 years. A principal advocacy of mine has 
always been protecting the Great Lakes. In fact, it is probably 
a principal reason I actually ran for Congress because of all 
of the various issues.
    If you can think about my district, you know it is great in 
Michigan. You always have a map of your State on the end of 
your arm. But if you think about the Mitten, I represent this 
but having been formerly a Secretary of State of Michigan, I 
have been involved in so many of these issues over the years.
    I would just say this because I didn't want to violate our 
unspoken standard that we don't question our other colleagues. 
But when Representative Kirk mentioned about the terrible 
conditions that are happening in Detroit with all of our sewage 
overflows, I think he was talking about this. This came out in 
November of 2006, the Sewage Report Card, and it goes through 
the major communities on the Great Lakes.
    You have Green Bay, Wisconsin up here with a B plus grade 
and then Detroit at the very bottom with a D. I will make no 
excuses for the City of Detroit, although I don't represent 
Detroit.
    The City of Detroit has actually the entire region there 
that they are treating, most of the municipal sewage. So there 
is more than the 800,000 population in the City of Detroit 
whose sewage is being treated. It is probably closer to three 
or four million people actually. But we have a long way to go 
and much room for improvement, obviously, there.
    However, I will note in the City of Chicago, they don't 
really have those kinds of problems because, of course, around 
1900 they actually diverted the Chicago River and flushed their 
sewage down the Mississippi River. So they don't bring it into 
the Great Lakes Basin, and I think that's fine. However, if you 
live in St. Louis, you might not think it is as good.
    I would also say when they are diverting actually in 
Chicago, they divert over two billion gallons each and every 
day of Great Lakes water down the Mississippi, not only for 
their sanitary purposes but also to help float the barges on 
the Mississippi River.
    I think it should be pointed out because we now have such 
historic low lake levels that maybe it was okay when we had 
plenty of water, but with the low lake levels that we have 
today, I would like this Congress to revisit. I know the 
Supreme Court has talked about this issue and opined on it, but 
I don't think it is out of the realm for us to revisit this 
issue diversion that is happening of the Great Lakes in 
Chicago.
    I understand that they need the drinking water supply and 
for sanitary reasons, et cetera, but flushing that amount, 
diverting that amount of water, over two billion gallons each 
and every day, I think is not a good idea for the Great Lakes.
    Now, my question if I have just a moment here, I want to 
focus on phosphorus. My colleague, Representative Stupak from 
Michigan brought this up as well. This is something I am very, 
very interested in. I actually have sent a letter to our 
Governor, asking them to follow the lead of the States of 
Florida and Minnesota who both have statewide restrictions on 
phosphorus.
    If you go to Google Earth and look at Michigan, I know the 
panelists can't see it, but you can actually see green all the 
way around the State of Michigan particularly in Saginaw Bay 
and Lake St. Clair and down in through here by Toledo. That is 
algae blooms created for a number of reasons, but a huge 
component of that is phosphorous.
    Again, because of the historic low lake levels and the sun 
getting down to the bottom of the lakes, we are growing 
beautiful, beautiful lawns on the bottom of these lakes with 
all the phosphorus, the heavy phosphorus that we have in our 
lawn fertilizers and dishwashing detergents and, of course, all 
the outflow from the wastewater treatment plants.
    I guess my question would be do you think it would behoove 
the Great Lakes on a Federal level, whether that is through 
legislation or regulation or financial assistance or a 
combination of both, to restrict phosphorus into the Great 
Lakes through the basin?
    Mr. Maurer. Well, I actually lived in the State of Michigan 
for about eight years, so I am very familiar with some of these 
problems.
    We haven't looked directly at that issue at GAO. We don't 
have a view specifically on the issue of phosphorus. However, 
we are concerned about the level of water quality in the Great 
Lakes as a whole, and we would hope that the different Federal 
agencies, as well as local and State governments work to 
address those problems.
    Mrs. Miller. Well, I will tell you in regards to the EPA, 
God love you, but you are not really helping us very much in 
this position.
    In Saginaw Bay, where we are really having huge problems, 
we just call it the muck issue. One of our colleagues talked 
about dead fish. Well, we have the dead fish. We have this muck 
that is all over Saginaw Bay and all over the shorelines.
    NOAA actually has committed about $4 million to do a study 
of Saginaw Bay, looking at some of the various, trying to 
pinpoint where the phosphorus is coming from.
    EPA, on the other hand, has said you are contributing 
$80,000 which I appreciate that, but it is not really a lot of 
change in our blue jeans. We could really use some additional 
help from the EPA to pinpoint where this phosphorus is coming 
from. It is an unbelievable problem that we are having right 
now.
    I think I am out of time, but I don't know if anyone else 
has any comments on that. I just think that that is something, 
as a Congress, it would seem.
    We have various counties, for instance, in Michigan and I 
am sure that is happening in some of the other States, that are 
enacting local ordinance, but the water doesn't really know if 
it is in one county or another county or one State or one 
Nation or what have you.
    I think we need to have a comprehensive policy on the 
phosphorus, and I raise that issue. I think it is something the 
International Joint Commission could also take a look at 
because, of course, again it is happening on both shores and it 
is exasperated really now because of the historic low lake 
levels that we have, which is why I brought up the diversion in 
the Chicago sanitary canal.
    I mean if the City of Detroit diverted the Detroit River, 
we might not be dumping anything into the Great Lakes either. 
Obviously, we could never do that kind of a thing.
    But phosphorus, I think, is common sense, something that we 
could do very quickly. People could still have green lawns. 
There are other kinds of elements that the fertilizer companies 
could put into their products without dumping it into the Great 
Lakes. I am not sure that this is a question as much as a 
statement.
    But I do want to thank the International Joint Commission 
not only for being here today. They have been a fantastic help 
in so many various ways. I have worked with Commissioner Gray 
and others on looking at a problem.
    Right now, the International Joint Commission is actually 
studying a problem that we have in the St. Clair River right 
under the Bluewater Bridge in the City of Port Huron. Our 
Chairman is very familiar with the City of Port Huron.
    What has actually happened is in the early sixties, the 
Corps of Engineers did extensive dredging in the St. Clair 
River under the Bluewater Bridge ostensibly to open up the 
upper Great Lakes for shipping, which is a very important 
economic impetus obviously.
    But there is a theory that is being advanced by one of the 
foremost coastal engineering firms in our hemisphere actually, 
that has said that because of that dredging, subsequent 
dredging, subsequent erosion, it is sort of like a bathtub 
effect of pulling the plug and that is also diverting, 
essentially, a Lake St. Clair every 18 months right over the 
Niagara and out into the big pond there. I am not sure whether 
that is true or not, but the International Joint Commission 
will assist us in finding out if that is so. We need to base it 
on sound science.
    So I appreciate the International Joint Commission, 
Commissioner Brooks for being here and all of your assistance 
on that as well. I don't know if you have any comment on that 
particular study and where you are at now.
    Ms. Brooks. You are correct. Actually, the Upper Lake Study 
took that issue and put it ahead of all other issues, the St. 
Clair. They have not completed their studies on that yet. They 
have completed videotaping the bottom of the area, the affected 
area. But we hope to have an answer sooner than later, but it 
is going to take some time until we are able to assess that, 
but they are working on it.
    Mrs. Miller. With the Chair's indulgence, maybe I could ask 
just one further question.
    Mr. Oberstar. If the gentlewoman would yield just a moment 
on two points.
    Mrs. Miller. Certainly.
    Mr. Oberstar. First, hurry with your assessment. We are 
going to be doing, under Chairwoman Johnson's leadership, 
another Water Resources Development Act. There are some issues 
that we need to address legislative, and we want to be able to 
do it this year. So get your work to us--I mean to the 
respective governments--so that we can take a look at it and 
then deal with it as is appropriate.
    Second, on the issue of phosphorus, EPA says in their 2007 
report, phosphorus targets have been met in Lake Ontario, 
Huron, Michigan and Superior. You are reporting algae blooms 
and bottom growth of vegetation in your Lake St. Clair and just 
off Port Huron. Those are seemingly contradictory observations.
    Mr. Olson. Mr. Chairman, if I may?
    Mr. Oberstar. Yes.
    Mr. Olson. We are just beginning to address the near-shore 
issues including the non-point source concerns with phosphorus 
dumping into the lakes. I suspect that may be part of the 
answer.
    We hope to have a more definitive position on that soon, 
and we would certainly hope that the two governments may find 
it in their interest to give us a reference on the specifics, 
but I think we will be in a position to add valuable 
information to the database as soon as we can get fully engaged 
in the near-shore concerns.
    Mr. Oberstar. I thank the gentlewoman for yielding.
    As lake levels drop, there is bound to be a higher 
concentration of nutrient-limiting factors. That is elements 
that when removed from a water column will limit growth, but as 
water warms, that growth will accelerate. So we have two 
rapidly colliding factors here that have to be addressed and 
addressed very soon.
    I thank the gentlewoman for yielding.
    Mrs. Miller. Thank you and I certainly appreciate the 
Chairman talking about the phosphorus as well because, as you 
say, we have conflicting reports from the EPA.
    I am not sure what your reports show, but I am a lifetime 
boater. All you have to do is walk around Lake St. Clair. You 
can hardly move because of the weeds that are growing in there 
now with the low lake levels.
    Then again in Lake Huron and along the entire thumb area, 
the Saginaw Bay up in Traverse City, the northern part, it is 
everywhere. It is just everywhere. It is not the only reason 
that is happening, but certainly phosphorus is contributing to 
that.
    If I could, with the Chair's indulgence, just ask one 
further question then in regards to invasive species and I am 
delighted that I think the full House is going to be acting on 
the invasive species this year. Because of the salties that 
come into the Great Lakes, there are really only several 
hundred of them because of the restriction, of course, as they 
come through the St. Lawrence Seaway and whatever we do with 
the ballast water, et cetera.
    One of the other problems I am not sure we could ever 
really resolve is because many of the invasive species are 
actually attaching themselves to the hulls of the ships. They 
are not only inside the bilge, they are on the hulls.
    We have found that in Michigan and throughout every State 
in the Great Lakes Basin with the zebra mussels, for instance. 
You dump your boat in Lake Michigan or what have you and then 
you trailer it over into an inland lake and put it in there. 
That is how the zebra mussels have spread because they were 
attached to the hulls, and that is what is happening with 
these.
    I bring that up because some people have actually talked 
about whether or not to just ban oceangoing freighters from 
coming into the Great Lakes system. I guess I would be 
interested if any of you have any. I guess I am not a proponent 
of that yet, but many people are talking about such a thing.
    Mr. Maurer. That is not anything we have looked at in GAO, 
but I will get back to the phosphorus issue just briefly.
    In our 2005 report, we did talk about the importance of 
addressing non-point source and addressing the overall water 
quality problems in the Great Lakes. While the Great Lakes 
Initiative focuses on point sources from industrial and 
municipal users, we have to address the non-point sources 
because they are in fact becoming the majority source for 
pollution in the Great Lakes. So addressing problems like 
phosphorus that you have raised are an important part of 
addressing the overall problem.
    Mrs. Miller. Thank you very much, Madam Chairman.
    Ms. Johnson. Thank you very much.
    Mr. Chairman.
    Mr. Oberstar. Thank you, Madam Chair.
    I thank this panel for being here, for your thoughtful 
testimony in which you have summarized well the full documents 
which I read last night and this morning.
    Mr. Maurer, GAO has always been a great help to us on the 
Committee on assessing the issues of Great Lakes water quality, 
and again you have presented some thought-provoking 
observations. Lack of proven analytical methodologies: how and 
in what ways has that hindered the assessment of 
bioaccumulative chemicals in the Great Lakes waters and in 
implementing the GLI?
    Mr. Maurer. We see that as a significant obstacle to both 
issues. If we don't have an approved analytical method that can 
measure consistently the different chemicals, it makes it 
difficult to measure progress towards reaching GLI goals. If 
there are different standards in the different permits, it is 
kind of difficult for EPA or anyone else to know whether or not 
they are making progress towards reaching the GLI goals.
    Mr. Oberstar. What are the obstacles in reaching or 
agreeing upon approved methodologies?
    Mr. Maurer. Well, I think it varies depending on the 
chemical, but in general what we heard from EPA is that a lot 
of these standards are, by design, meant to be technology-
forcing. So when they were put into place in the mid-1990s, 
there were no technologies able to assess at this level. It was 
meant to force that development.
    What EPA tells us is that it is expensive and time-
consuming to do this.
    Mr. Oberstar. I get exasperated with that stuff, and I will 
be exasperated at EPA, not at GAO.
    Mr. Maurer. Good.
    Mr. Oberstar. We have universities throughout the Great 
Lakes that are spending thousands of hours, millions of 
dollars, doing this kind of research. Why can't EPA bring them 
all together in a consortium and say figure it out?
    Mr. Maurer. That is a very good question. We didn't ask.
    Mr. Oberstar. Mr. Grumbles is here in the audience. I 
enjoin him to think about that, so when he comes to the witness 
table, he will be ready to answer.
    Mr. Maurer. Yes, it is something we are concerned about, 
obviously, because you can't reach the goals set in the GLI and 
you can't contribute to the overall cleanup of the Great Lakes 
without having these methodologies.
    Mr. Oberstar. We have EPA's water lab in Duluth. We have, 
well, the associated research centers that are associated with 
the National Environmental Research Laboratory. Bright minds, 
capable people, they all ought to be harnessed and given a 
deadline to come up with methodologies. It is not that 
difficult.
    Time lines, you said they don't have a time line. Have you 
made some assessment of what a time line could be, or what 
would be an achievable time line?
    Mr. Maurer. We didn't do an assessment about a specific 
time line. But we think that it is important for not just the 
GLI but government programs in general to have a measurable 
goal and have some time frames for when you are going to reach 
that goal and also have indicators of the progress you are 
making towards success in reaching that goal.
    There is no time line for the Great Lakes Initiative, and 
EPA has a mixed record at assessing progress along the way.
    Mr. Oberstar. And, there is another problem associated with 
a time line. The preamble of the legislation, the GLI, says the 
intent is to establish ``consistent and forcible long term 
protection for the Great Lakes with a short term emphasis on 
the types of long-lasting pollutants that accumulate in the 
food web and pose a threat to the Great Lakes'' and then it 
goes on to cite flexibilities.
    As part of the flexibilities, there have been waivers given 
for one after another pollutant for various reasons for five 
years. Then they come to the end of the five years, and there 
is another five year waiver. Have you made an assessment of the 
waiver issue?
    Mr. Maurer. That is right. As part of our preparation for 
this hearing, we went and got information from all the 
different Great Lakes States to do an assessment of the extent 
to which they are using these flexibilities, and we found that 
in many cases States were issuing flexibilities for the permits 
for substances like mercury.
    We didn't review individual permits, so we are not saying 
whether or not it was a good idea to do that for individual 
permits. But at large, if you have this continued use of 
flexibilities and there is no sunset provision and they are 
used over and over again, we are concerned you are never going 
to reach the GLI levels.
    When we asked EPA and State officials when they thought the 
GLI levels would be reached, they couldn't give us an answer.
    Mr. Oberstar. At some point, the flexibility has to end. 
When is that point?
    Mr. Maurer. Under law right now, there is no end point. 
They can, theoretically, be continued forever.
    Mr. Oberstar. It is a problem of the law itself, and 
Congress can and should put an end date. Would the IJC be in 
favor of that?
    Mr. Olson. We would have to consult. We might have to turn 
around and consult with our Canadian colleagues.
    Mr. Oberstar.[Foreign language.]
    Mr. Oberstar. Mr. Gray? I will have to translate that later 
for the Reporter of Debates.
    [Laughter.]
    Mr. Olson. Mr. Gray was prepared to respond to you in 
French.
    Mr. Oberstar.[Foreign language.]
    I think we will maybe do that.
    Mr. Olson. Maybe after we have concluded our part.
    Mr. Oberstar. Yes, indeed, in a separate testimony.
    In an earlier statement, Chairwoman Brooks, you said that 
the Great Lakes Water Quality Agreement U.S.-Canada, Canada-
U.S. should be reframed. How long will it take to do that?
    Ms. Brooks. My personal opinion is, it depends on how 
quickly EPA will react to all the advice that they have been 
given and when they make the decision, whether there will be an 
amendment or a new agreement or nothing at all.
    Mr. Oberstar. Historically, the principal impetus for the 
Canada-U.S. Great Lakes Water Quality Agreement was from the 
Canadian side. I participate annually in a Canada-U.S. 
Interparliamentary Group meeting and have done since 1981.
    Canadian MPs and Senators were the driving force behind the 
acid rain issue that eventually forced both governments to come 
to an agreement, an air quality agreement as well as a water 
quality agreement. I can see his face. I just can't think of 
the MP from Canada who was so astute as to get a signature pen 
from both President Reagan and Prime Minister Mulroney.
    It was Canada that prodded the U.S. to come to the table to 
reach agreement. We may have to call upon our Canadian 
counterparts to do that again.
    But, according to this Committee, under my Chairmanship and 
with strong support from the Republican side of this Committee, 
this is a bipartisan issue. This is an American-Canadian-North 
American issue. We are going to do something about it.
    Ms. Brooks. Yes, I am glad you pointed that out. It is 
binational. EPA, actually, DFAIT and Department of State are 
involved, of course, in this process too. So we are just 
waiting and waiting and able to assist in any way that they 
would like us to participate.
    Mr. Oberstar. In 1909, there was a meeting of President 
Roosevelt and the Prime Minister of Canada at the time, whose 
name escapes me.
    Mr. Olson. Mackenzie King.
    Mr. Oberstar. It wasn't Mackenzie King. It may have been, 
but I think it was just before Mackenzie King, who in the 
meeting said, well, Mr. President, we may not be in the same 
boat, but we are more or less in the same waters, and we must 
take care of those waters.
    That was good advice that we ought to still observe, and 
that is why we have the 1909 treaty and that is why we have the 
IJC, which for along time was a moribund agency. Since the mid-
1960s, it has been rejuvenated and been a very strong force for 
action.
    I remember a time when I started on the staff of my 
predecessor, and we would call and ask the IJC for information, 
and they would be having their winter meeting in Mexico. No 
more. You are now focused on the Great Lakes. The colder, the 
better; the more intense your focus.
    I would like to know more about low water on the Great 
Lakes, for a variety of reasons I need not elaborate on. They 
are well known to all of us who follow the Great Lakes. What is 
the current regulatory scheme established by the IJC? Is it 
still the SEO, Superior-Erie-Ontario?
    Ms. Brooks. Yes, as far as Sault Sainte Marie and then, of 
course, the Moses-Saunders Dam are the two structures that have 
any influence on levels. That is it.
    Mr. Oberstar. Now, the issue raised by Mrs. Miller which is 
a very serious one, of the increasing outflow through St. 
Clair, does not affect Michigan, Lake Michigan because it is 
its own regulatory scheme. If you pull the plug at Chicago and 
drain water out, you are affecting Michigan but not the SEO 
scheme.
    But if you shut off the Lake Ogoki and Long Lake diversion 
into Lake Superior which has been in place since early World 
War II as a power generation scheme and left in place to 
provide feed for the upper lakes and the lower lakes, then you 
would have a serious problem. We would have a much lower water 
level if something were done with Long Lake or Ogoki.
    Have you had discussions on the IJC about the inflow? That 
is 5,000 cfs if I recall.
    Ms. Brooks. The Upper Lakes Study which just began about a 
year ago will be looking at many of those issues, and we hope 
that that study will be move as quickly and expeditiously as 
possible.
    Mr. Oberstar. Well, I would like to pursue these matters 
further, Madam Chair and colleagues, but staff notifies me that 
we may have votes at noon and I will have to suspend at this 
point, so we can get to the next panel.
    Ms. Brooks. Thank you.
    Ms. Johnson. Thank you very much.
    I want to thank the witnesses from panel two and again 
suggest that the Members of the Subcommittee may have some 
follow-up questions for the record, and we would hope that you 
would give a timely response if there are questions forwarded 
to you. I appreciate your cooperation and your valuable 
participation this morning.
    Ms. Brooks. Thank you.
    Mr. Maurer. Thank you.
    Ms. Johnson. The final panel will be the Honorable Benjamin 
Grumbles, Assistant Administrator for the Environmental 
Protection Agency Office of Water; accompanying Administrator 
Grumbles is Ms. Mary Gade, Program Manager of EPA's Great Lakes 
National Program Office; Dr. Stephen Brandt, Director of the 
National Oceanic and Atmospheric Administration's Great Lakes 
Environmental Research Laboratory; Mr. Charles Wooley, Acting 
Regional Director of the Midwest Region of the U.S. Fish and 
Wildlife Service; and Ms. Christina Muedeking, Central Regional 
Assistant Chief of the Natural Resources Conservation Service.
    As I have noted to the previous panels, your full 
statements will be placed in the record, and we ask that you 
limit your testimony to at least five minutes. We are going to 
try to move, not disrespectfully, but as rapidly as we can, so 
that we can finish before the vote is called.
    Mr. Grumbles, you may begin.

  TESTIMONY OF THE HONORABLE BENJAMIN H. GRUMBLES, ASSISTANT 
   ADMINISTRATOR FOR THE OFFICE OF WATER, U.S. ENVIRONMENTAL 
PROTECTION AGENCY ACCOMPANIED BY MARY A. GADE, PROGRAM MANAGER, 
    GREAT LAKES NATIONAL PROGRAM OFFICE, U.S. ENVIRONMENTAL 
PROTECTION AGENCY; DR. STEPHEN B. BRANDT, DIRECTOR, GREAT LAKES 
    ENVIRONMENTAL RESEARCH LABORATORY, NATIONAL OCEANIC AND 
   ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE; 
CHARLES WOOLEY, ACTING REGIONAL DIRECTOR, MIDWEST REGION, U.S. 
FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR; AND 
CHRISTINA MUEDEKING, CENTRAL REGIONAL ASSISTANT CHIEF, NATURAL 
 RESOURCES CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Grumbles. Thank you, Madam Chair, and thank you, 
Chairman Oberstar, Congresswoman Miller, Congressman Hall. We 
appreciate the opportunity to testify on the progress and the 
challenges confronting the Great Lakes.
    With me is Mary Gade, the Regional Administrator, Region 5 
and also the Great Lakes National Program Manager.
    As we all know, the Great Lakes is not just an 
environmental treasure. It is an economic powerhouse.
    Madam Chair, the basic summary of the testimony is this: We 
have made a dramatic comeback in the Great Lakes compared to 
where it was in the seventies, but we face significant issues 
and emerging challenges.
    The President issued an executive order in May of 2004, 
initiating a process, a Federal interagency taskforce with EPA 
in the lead to improve upon the coordination, to align the 
resources and to put more of a emphasis than ever before on 
restoring and protecting the Great Lakes.
    An extremely important part of that executive order was 
also calling for a collaboration, a true collaboration. As 
Members have testified, this regional collaboration is one of 
the most significant developments in recent years because it 
signals progress towards sustainability and resiliency in the 
Great Lakes. So that led to a strategy, and that strategy has 
been a blueprint for progress over the years.
    The other significant development with help from Congress 
has been the Great Lakes Legacy Act. We recognize, I think 
everyone that is a partner in that strategy and the 
collaboration recognize that the toxic sediments and the legacy 
sediments need to be a priority. That is where we put our 
efforts at the EPA, one of the many priorities, and there has 
been progress on that front.
    Madam Chair, what we have seen in terms of the Great Lakes 
Regional Collaboration and the Interagency Task Force of the 
Federal agencies is a focus on the priority issues.
    As Congresswoman Miller knows and often reminds us, 
invasive species is one of the greatest threats to the ecology 
and the economy of the Great Lakes. So we are putting efforts 
there with a rapid response work group. We have been developing 
protocols.
    We urge Congress to reauthorize and strengthen invasive 
species laws. It is not just EPA but the other Federal agencies 
that are part of the Taskforce, pursuant to the President's 
executive order, that are putting a priority on regulatory and 
legislative responses to these global hitchhikers that are 
entering the Great Lakes.
    Madam Chair, we also have put a focus on toxic sediments 
over the last several years. We have removed, with your support 
and the support of our partners, over 800,000 cubic yards of 
contaminated sediments from the various Great Lakes legacy 
sites.
    We are also working with our partners, Canada and the IJC, 
on an international level. We recognize the importance of that 
and look forward to discussing further the future of possible 
revisions to the agreement, the international agreement.
    Madam Chair, I would say that the Great Lakes Regional 
Collaboration is one of the most important components for 
future progress. We are all committed at the Federal agency 
level to ensure this continues. We just recently, with our 
State and local and tribal partners, announced additional 
initiatives on wetlands, invasive species, toxic pollutants and 
beaches.
    The accomplishments over the last few years include a 
commitment for Federal agencies working together to provide 
wetlands and watershed restoration grants. We also have seen 
the Oswego River, New York Area of Concern de-listed.
    We are focused. We are committed to wetlands restoration. 
The President's goal, the goal that is part of the Federal 
agencies' response to the strategy is 200,000 acres restored or 
improved, 100,000 from the Federal level. We are making 
significant progress on that front.
    What often is not mentioned in hearings like this are some 
of the good news stories that have occurred over the years, not 
just because of Federal action but because of State and local, 
tribal and private sector action. There has been good news that 
is reported in the 2007 State of the Great Lakes Report. The 
Great Lakes continue to be a good source for municipally-
treated drinking water. There is progress in terms of the 
levels of most contaminants in herring gull eggs and predator 
fish.
    But we face very many challenges, Madam Chair, and we have 
talked about those throughout the morning or we have listened 
as Members and others have spoken about them. We recognize 
invasive species, contaminated sediments, nutrient levels.
    Madam Chair, we are working. We are putting a priority, a 
national priority and a Great Lakes priority on nutrient 
criteria to help translate those limits into permits, whether 
it is phosphorus or nitrogen. We recognize that is a continued 
challenge for progress in the Great Lakes.
    We also recognize that climate change in terms of part of a 
broader picture is a very important part. So whether it is the 
Region Five framework on climate and clean energy or the draft 
water national strategy on climate change, we are looking at 
these issues and we look forward to answering your questions 
throughout the hearing. Thank you.
    Ms. Johnson. Thank you very much.
    Dr. Brandt.
    Mr. Brandt. The Great Lakes are one of the Nation's most 
important aquatic resources. Multiple stressors are affecting 
the health and water quality of the Great Lakes. Add to this 
mix the changes in land use, climate change and natural 
variability, and the situation becomes very complex. Future 
successes will depend on a comprehensive and balanced ecosystem 
approach.
    NOAA has significant responsibilities in the Great Lakes 
and promotes both a science-based and an ecosystem-based 
approach to water quality improvements and restoration. Our 
work is broad and ranges from such issues as invasive species 
and food webs to watersheds and water movements to water 
quantity and water quality. We work in close partnership with 
our State and Federal partners to provide comprehensive science 
management and technical assistance tools.
    Research is fundamental to our mission and research 
priorities are based on user needs. As such, research results 
must get into the hands that use and manage the Great Lakes. 
Our overarching research goal is to develop forecasting tools 
that predict how the ecosystem responds to the physical, 
chemical, biological and human-induced changes. By being able 
to forecast such things as low oxygen, harmful algal blooms, 
water quality, fish production and extreme natural events, we 
can provide critical information for decision-makers and the 
public.
    I would like to give you three examples. One is the Lake 
Erie dead zone which has been a key indicator of the health of 
the lake for over three decades. Evidence suggests that the 
size of the low oxygen waters has grown in recent years.
    What is causing this growth and can we stop it? How will it 
affect food webs and fisheries? Is it a threat to drinking 
water quality? NOAA is actively trying to answer these 
questions.
    One example concerns the Cleveland Water District which 
provides drinking water to over 1.5 million people and gets its 
main source of water from the central basin of Lake Erie. In 
2006, some of the water treatment plants were exposed to 
hypoxic water from Lake Erie which can compromise water 
treatment in the system.
    Last year, we deployed some real time sensors in the area 
to provide an early warning system to Cleveland to give them 
advance notice, so that they could place alternative processing 
and storage techniques on standby during such hypoxic events. 
Our research is now looking at ways to predict these hypoxic 
intrusions through temperature monitoring and water movement 
monitoring.
    As a second example, the NOAA Center of Excellence for 
Great Lakes and Human Health is developing tools to forecast 
beach conditions, harmful algal blooms and drinking water 
quality to reduce the risk to human health. We are also trying 
to identify the causes of these problems so that long term 
solutions can be found.
    For example, harmful algal blooms produce potent toxins 
that can contaminate drinking and recreational waters. In the 
Great Lakes, we have found algal toxin levels that were 10 
times higher than the World Health Organization's recreational 
standards.
    To aid officials, we recently held user needs workshops in 
Toledo, Bay City and Green Bay to discuss how harmful algal 
blooms can affect drinking water quality and to find ways to 
detect and monitor these blooms. Both public health, drinking 
water and beach management sectors all participated at these 
workshops.
    Thirdly, the NOAA National Center for Research on Aquatic 
Invasive Species fosters partnerships to address prevention, 
early detection, rapid response and management of invasive 
species. An important research area for NOAA is to understand 
how established invaders are affecting the ecosystem so we can 
minimize their impact.
    We are also looking at how invaders get into the lakes via 
transport in the ballast tanks of ships. NOAA and the 
Smithsonian recently concluded that in the absence of effective 
alternative treatment strategies, the use of ballast water 
exchange has been effective.
    In addition, new policies and regulations have been 
recently proposed by both the U.S. and Canada for vessels 
entering the lakes that officially have no ballast on board. 
These requirements were based on findings of the NOAA-led 
research that demonstrated that these vessels still presented a 
level of invasive risk and a saltwater flushing might help.
    In closing, I would like to highlight two initiatives. In 
2006, NOAA created eight regional teams to pool NOAA's regional 
resources to focus on the unique needs of the various 
geographic regions of the United States. Just recently, we 
created a Center of Excellence for Great Lakes ecosystem 
restoration to mobilize NOAA's capabilities to support broader 
restoration efforts in the Great Lakes.
    Secondly, just last week, NOAA announced a new $3.8 million 
program to examine how multiple stressors including nutrient 
loadings, declining water levels and invasive species combine 
to affect water quality, fisheries and economics in Saginaw 
Bay, Lake Huron. We have a number of partners in this endeavor.
    In summary, water quality improvements and restoration need 
to be based on the best available science, and an ecosystem-
based management approach is essential.
    I thank you for inviting me to this hearing, and I am happy 
to answer any questions.
    Ms. Johnson. Thank you very much.
    Mr. Wooley.
    Mr. Wooley. Madam Chairwoman, there is a critical 
connection between clean water and healthy fish and wildlife 
resources in the Great Lakes.
    The Fish and Wildlife Service has a number of programs and 
projects I would like to highlight, including our strong 
partnership efforts among members of the Great Lakes Regional 
Collaboration as well as with Great Lakes States, conservation 
organizations, tribes and private landowners. The Service's 
role within this collaboration is to address issues that affect 
the fish, wildlife and habitats of the Great Lakes Basin as 
well as the 35 million people who live there.
    This work is important not only to the fish and wildlife 
but to the American economy. Service data indicate hunting and 
fishing and wildlife generate $18 billion in annual revenue in 
the Great Lakes Region including just $1.5 billion from 
sportfishing alone.
    With this in mind, the Service is strongly committed to 
protecting and restoring the water quality of the Great Lakes. 
Water quality is a function of wetland quality and quantity. 
That is healthy, intact wetlands in the basin will mean better 
water quality for the Great Lakes. Wetlands serve to clean and 
filter our waters as well as to sequester and store vast 
amounts of carbon, a leading greenhouse gas contributing to 
global climate change. Unfortunately, the Great Lakes has lost 
more than half of its original wetlands.
    On Earth Day in 2004, the President announced an initiative 
to restore, enhance and protect 3,000,000 acres of wetlands 
nationwide over 5 years including 200,000 acres in the Great 
Lakes. Since January of 2004, 64,000 acres of wetlands have 
been protected, restored and enhanced in the Great Lakes.
    Of this total, the Fish and Wildlife Service contributed 
40,000 acres or about 60 percent. This contribution highlights 
the significance of the Fish and Wildlife Service authorities, 
programs and field-based presence to work with partners to 
identify and implement important projects that benefit both 
water quality, fish and wildlife and, most importantly, the 
American public.
    The Service has 58 field stations spread across the Great 
Lakes Basin who work with partners on a day to day basis to 
identify, plan and implement projects. Typically, these 
projects focus on habitats, such as wetlands, that provide 
positive benefits to water quality including filtering 
sediments while providing essential fish and wildlife habitat.
    The Service has programs that provide technical and 
financial assistance, such as our Partners for Fish and 
Wildlife Program and our Coastal Program. In fact, just last 
week, the Fish and Wildlife Service announced seven grants 
totaling more than $4 million for coastal projects in Illinois, 
Michigan and Wisconsin. These projects will protect, restore or 
enhance more than 2,400 acres of Great Lakes wetlands.
    In addition to these wetlands and habitat conservation 
programs, under authority provided by the Great Lakes Fish and 
Wildlife Restoration Act, the Service continues to lead the 
collaboration activities related to invasive species, fish and 
wildlife habitat restoration, and collection and management of 
related information and ecosystem health indicators.
    As Co-Chair of the Aquatic Nuisance Species Taskforce, the 
Service provides technical and financial assistance to planning 
efforts to support prevention and control of invasive species 
in the region.
    In terms of ecosystem health, the Service believes a 
successful restoration strategy for the Great Lakes must also 
include an informed decision-making process based on consistent 
methods to measure and monitor key indicators of the 
ecosystem's function. The Service's National Wetlands Inventory 
has the primary responsibility for mapping and inventorying all 
wetlands and surface waters of the United States. Knowing where 
and what types of wetlands and deep water aquatic habitats are 
currently on the landscape is critical when targeting planning 
and implementing Great Lakes Basin and coastal wetlands 
restoration and protecting resources.
    Of note, as reported recently, in the National Wildlife 
Federation's Report on Global Climate Change, the Great Lakes 
are particularly susceptible to negative effects, specifically 
reduction of water supply and increased water demand in the 
region.
    Finally, another critical program to the Service is the 
Service's Environmental Contaminants Program which is the 
primary Federal program with expertise in fish and wildlife 
ecotoxicology. This program provides assistance to other 
agencies and stakeholders to address water quality issues 
arising from pollutants. An example are our natural resource 
restoration programs that are working in the Fox River, 
Wisconsin, Kalamazoo River and Saginaw Bay, Michigan.
    In closing, the Service is committed to working with our 
many partner to ensure healthy fish and wildlife resources in 
the Great Lakes and to enhance and restore ecosystem health in 
the basin.
    Thank you, Madam Chairwoman.
    Ms. Johnson. Thank you very much.
    Ms. Christina Muedeking.
    Ms. Muedeking. Good morning, Madam Chairwoman, Ranking 
Members and Members of the Subcommittee.
    My name is Christina Muedeking. I am the Regional Assistant 
Chief for the Natural Resources Conservation Service, for the 
agency's central region, and I am pleased to be with you today.
    Since we last testified about the Great Lakes before this 
Subcommittee, USDA was named to the Great Lakes Interagency 
Task Force. Under the leadership of the Environmental 
Protection Agency, the Task Force assisted in the development 
of the Great Lakes Regional Collaboration Strategy, a plan to 
protect and restore the Great Lakes. Two USDA agencies, NRCS 
and the Forest Services, are actively engaged in implementing 
the strategy by working directly with private landowners to 
help them meet their water quality and other conservation 
objectives.
    NRCS is also one of the principal partners of the Great 
Lakes Basin Program for Soil Erosion and Sediment Control which 
was initiated in 1991 and codified in the 2002 Farm Bill. The 
Great Lakes Commission coordinates the program in partnership 
with USDA, EPA and the U.S. Army Corps of Engineers.
    In our role, NRCS provides voluntary, onsite technical 
assistance to farmers for the application of land treatment 
methods designed to reduce erosion and sedimentation and the 
related delivery of associated nutrients and pesticides within 
the basin. Much of this technical assistance is funded through 
NRCS's Conservation Technical Assistance Program or CTA.
    Beyond CTA, landowners may participate in a diverse array 
of Farm Bill programs that are administered by NRCS. Our 
portfolio of programs includes cost-share, easement and 
stewardship programs, all of which provide technical and 
financial assistance to private landowners.
    The 2002 Farm Bill provided USDA with a historically 
unprecedented increase in conservation funding. This increase 
in funding is reflected in NRCS's conservation investment in 
the Great Lakes Basin. Counting only those programs considered 
to have a direct impact on Great Lakes water quality, such as 
the Environmental Quality Incentives Program and the Wetlands 
Reserve Program, NRCS provided an estimated $87 million in 
financial and technical assistance to basin landowners in 
fiscal year 2006 alone.
    Landowners enrolling in the Wetlands Reserve Program have 
in the last two fiscal years created, restored or improved over 
20,000 wetland acres in the Great Lakes Basin.
    Congress is currently in the midst of conference 
negotiations for the next Farm Bill. In January, 2007, USDA 
released its Farm Bill proposals to increase conservation 
funding by $7.8 billion over 10 years.
    USDA's proposed creation of a Regional Water Enhancement 
Program or RWEP is of particular interest to stakeholders in 
the Great Lakes Basin. The Administration's proposed funding 
for RWEP of $1.75 billion over 10 years would address an 
important component currently lacking in the Federal 
Government's conservation assistance regime, that of 
coordinated, watershed-based water quality and water 
conservation projects. The cooperative approach to water 
quality improvements exemplified by today's panelists is an 
example of the type of coordinated action that would be 
encouraged under RWEP.
    For both existing and future programs, we know that 
establishment of relevant performance measures remains a 
priority. While we have sound contract and project data and 
excellent information regarding resources distribution, we have 
yet to be able to fully quantify resource outcomes for 
conservation programs.
    To address this challenge, NRCS initiated the Conservation 
Effects Assessment Program or CEAP in 2003. By estimating the 
effects of conservation programs already in place, CEAP will 
ultimately provide decision-makers with a scientific accounting 
of environmental benefits achieved through conservation 
programs.
    Currently, a regional assessment for the Great Lakes Basin 
is being carried out under CEAP to determine the extent to 
which existing conservation practices are reducing nutrient and 
sediment loads from basin cropland. The assessment also 
includes estimates of the remaining need for conservation 
practices as well as estimates of possible additional load 
reductions in sediment, nutrients and pesticides both at the 
field level and instream. The Great Lakes Regional Assessment 
is scheduled for completion in 2009.
    Madam Chair, we know that through private landowners' 
stewardship actions on the ground, USDA is making important 
contributions to the improvement of water quality in the Great 
Lakes. We look forward to continued close cooperation with 
stakeholders at all levels as we help implement the Great Lakes 
Regional Collaboration Strategy and the Great Lakes Basin 
Program and measure the results of conservation activities.
    Again, I thank you and the Members of the Subcommittee for 
the opportunity to join you today. I look forward to answering 
any questions you might have.
    Ms. Johnson. Thank you very much.
    The Chair recognizes Mr. Hall for questions.
    Mr. Hall. Thank you, Madam Chair, and thank you to all of 
our esteemed witnesses for the work that you do and for your 
testimony.
    I have a question first for Mr. Wooley regarding over-
fishing or fish populations. There were stories a couple days 
ago about a new study about saltwater, ocean fishing or over-
fishing and then just today story that I read about unusually 
high levels of mercury showing up in tuna sushi of all things.
    I am just reading the reports about fish populations in the 
lakes which obviously are somewhat different but also probably 
suffering some of the same stresses. They don't have 24-7 
factory fishing boats from other countries necessarily trolling 
them, but they do have the mercury and other heavy metals 
falling from power plant emissions and so on.
    What do you think the state is of the fish population and 
what can we do best to try to maintain it or stabilize it?
    Mr. Wooley. Our fish populations in the Great Lakes are 
doing very, very well, sir. We have excellent management that 
occurs between the United States and Canada and between the 
States that is highlighted and choreographed by the Great Lakes 
Fishery Commission. We have a very active program with the 
States and the Federal Government of stocking fish in the Great 
Lakes.
    We have an almost $2 billion sport fishery in the Great 
Lakes. It is very robust. It is providing a great benefit back 
to the American public.
    We do issue, where we know we have concerns about 
contaminants, fish consumption advisories to advise people on 
how many fish to eat and what kind of species to eat. But, in 
one word, it is a robust population.
    Mr. Hall. That is good news. I am happy to hear that.
    Mr. Wooley. Thank you, sir.
    Mr. Hall. Administrator Grumbles, a number of you have 
mentioned climate change as a factor that you are taking into 
consideration. It seems that it is beginning to take its toll 
on even the Great Lakes with the water levels declining and 
temperatures warming.
    Would you say that some of the factors that contribute to 
climate change, like dirty coal-burning power plants, present a 
double threat for the lakes in terms of greenhouse gas 
emissions and pollutants that contribute to acidification, and, 
as we in Congress move forward with legislation this year to 
target climate change, what factors are most important to 
protect the Great Lakes?
    Mr. Grumbles. Thank you, Congressman.
    The Administration and EPA in particular recognize the 
importance of controlling mercury emissions and other 
pollutants from coal-fired power plants and other facilities. 
Often, what goes up into the air can come down into the Great 
Lakes as Chairman Oberstar and Chairman Johnson recognized in a 
hearing earlier on atmospheric deposition. That is one of the 
greatest threats to water quality in the Great Lakes. It is the 
atmospheric sources of pollutants. So we are focused on using 
Clean Air Act authorities and also Clean Water Act authorities.
    On climate change, as part of our emerging strategy in the 
water program, one of the highest priorities we are putting 
emphasis on is water efficiency. Reducing the water waste 
through our Water Sense Program, working with utilities and 
communities and manufacturers so that we reduce the amount of 
water waste, not through Federal EPA regulation, but through 
incentives in manufacturing and programs like our EnergyStar 
Program for water because the more water waste you reduce, the 
more efficient you are.
    Even in the Great Lakes and throughout the Country, where 
some people would think there is an abundance of water, it 
means less energy consumption. It means mitigating greenhouse 
gas emissions. It is a win-win. It helps on clean energy and 
energy security and reduces pollutants that get into the water.
    The other aspect on climate is having a thorough review of 
our clean water and drinking water programs and looking to see 
what types of adaptations are necessary. We know that restoring 
wetlands in the Great Lakes is not only good for the watershed, 
and the water, and the habitat, but also is an important 
component of the clean energy and energy security. So the 
climate component with IJC, and also within the EPA, is a 
growing area of emphasis to look to see how it connects to our 
existing tools.
    Mr. Hall. Thank you very much, Mr. Grumbles. I just want to 
jump in while I have two seconds left and ask a question.
    We heard in a hearing last year that, among the invasive 
species, there was a hemorrhagic virus that was showing up in 
at least one of the lakes, and I was wondering if any one of 
you could tell us if there has been any further developments 
with that, and, of course, whether the danger of virus or 
bacteria jumping from other species to humans through eating of 
the fish is something that one could be concerned about?
    Ms. Gade. Excuse me. Let me take that question. I think you 
are talking about viral hemorrhagic septicemia which is 
unfortunately a new virus that has broken out in most of the 
Great Lakes. There is an effort now to try to prevent its 
spreading to Lake Superior. In fact, the National Park Service 
has taken an aggressive role in trying to provide leadership in 
preventing the spread of that disease.
    It is quite serious. It impacts numerous species. It causes 
hemorrhaging, failure of organs and the death of the species. 
It has potentially very significant impacts in terms of the 
fishing industries and, hence, the economy of the lakes.
    The effort right now is to try and figure out how to 
forestall it from being spread further. There was a conference 
last week in my regional offices in Chicago. The National Park 
Service worked for an entire week, pulling in experts from 
different agencies to talk about how they could prevent further 
spread of it, whether there are things to be done in terms of 
treating ballast water, other sort of techniques that can be 
used. So it is a very serious concern.
    Mr. Hall. Thank you very much.
    As you get more information, I am sure other Members would 
like to hear about that in particular.
    Thank you, Madam Chair. I yield back.
    Ms. Johnson. Thank you very much.
    Mrs. Miller.
    Mrs. Miller. Thank you, Madam Chair. I know they have 
called the vote, but I did have one question for perhaps Mr. 
Grumbles.
    You know we have talked a lot about the various 
contaminants that are introduced into our Great Lakes system, 
particularly combined sewer overflows, et cetera, but we 
actually have somewhat of a unique dynamic in my region 
because, again, referring to my Mitten here.
    On the other side of the liquid border that we share with 
our great Canadian neighbors, actually right along this area in 
Sarnia at Point Edwards is the largest concentration of 
petrochemical plants, I believe, in North America. We have had 
over a thousand reported chemical spills. That goes into the 
St. Clair River and then ultimately to Lake St. Clair and right 
on down the Detroit River through Lake Erie, et cetera, all 
kinds of problem that we have had with that.
    One of the things that we have done actually in our region, 
and I am not sure if you are familiar with this system or if 
you have seen it anywhere else. We were actually able to get 
some Federal funding, but we have a great partnership between 
the Federal Government, the State and the local municipalities 
where we put water quality monitoring devices at strategic 
places, actually at the water intake plants. All along the St. 
Claire River there are seven of them, and we have also put two 
in Lake St. Clair.
    Now they are going to be extending that to the rest of Lake 
St. Clair and some of the other water intake plants and down 
the Detroit River and hopefully into Lake Erie where it is part 
of the notification protocols. So, every 15 minutes, the water 
plants are sampling, and they have immediate notification 
whether it is chemicals or any kind of contaminant that is 
introduced into the water transit.
    Interestingly enough, it could be serendipity or 
coincidence but now that everyone is aware that we are 
monitoring every 15 minutes, guess what? No more chemicals. It 
is a wonderful thing because we are able to track where it is 
coming from. So we have had very good experience with that.
    I mean I think that would be a fantastic model to see 
throughout the Great Lakes. Again, most of the places 
fortunately don't have chemical problems but for combined sewer 
overflows, et cetera, or any kind of contaminants.
    Mr. Grumbles. I think we all know that dilution is not the 
solution to pollution and that the first step, the key 
principle is prevention. Effective prevention means having 
monitoring systems of varying degrees and levels of 
sophistication.
    What you are talking about is an area of growing importance 
and maturity also as the Clean Water Act gets older, using 
different types of monitoring devices, relying on different 
mechanisms.
    We at EPA recognize, since we are charged with enforcing 
the Clean Water Act, working with the States, ensuring that 
permit limits are met because that is what is really 
enforceable, that there has to be an adequate and routine and 
accurate monitoring system. One of the great growth industries, 
the necessary ones, is to have improved monitoring, automated 
systems throughout the pipes, the thousands of miles of pipes 
underground as well as at the outfalls.
    I think for us the key to measuring progress and ensuring 
progress is going to be continued investment in monitoring 
methods of varying types, chemical constituents but also 
impacts on the biota. It is in a wide array. When you are 
talking about a petro chemical industry which may have several 
of the BCCs, bioaccumulative chemicals of concern, it makes it 
all the more important.
    Mrs. Miller. Right. Okay, very well.
    Ms. Johnson. Thank you.
    Mr. Oberstar.
    Mr. Oberstar. I have several questions, Madam Chair. We 
will have to break in about five minutes for the floor vote, 
and I would request that the Subcommittee recess for the vote 
and reconvene soon thereafter so that I and other Members may 
have the opportunity to pursue these questions.
    If you are committed to other matters, I will preside in 
your stead.
    Ms. Johnson. Any objection?
    Hearing none, we will recess for the vote.
    Mr. Oberstar. I think it would be good to recess now for 
the vote.
    Ms. Johnson. Yes, thank you.
    [Recess.]
    Mr. Oberstar. [Presiding.] The Subcommittee will resume its 
sitting. I assure witnesses and others that we will not be 
terribly long, but there are some items that I wanted to 
pursue.
    First, Mr. Grumbles, welcome back once again to the 
Committee, a familiar environment for you for many, many years 
as a staff member and also through your distinguished role with 
EPA.
    I propounded the issue in an earlier panel about harnessing 
the resources of the academic community, the universities who 
have participated in one way or another in research on Great 
Lakes water quality issues, and asked you to think about how 
that could be done and in what time frame. So I will give you 
the opportunity to respond.
    Mr. Grumbles. Thank you, Mr. Chairman.
    A couple points specifically related to that or relevant to 
that, one of them is that we recognize that there are 
technological challenges when we are measuring the parts per 
trillion levels when it comes to bioaccumulative chemicals of 
concern like mercury, in particular.
    We, just recently in March of 2007, approved a new and more 
sensitive method for measuring mercury. Since then in August of 
2007, we sent a very strong signal to the Great Lakes and to 
other parts of the Country that when it comes to mercury, in 
particular, and putting defensible, measurable limits in Clean 
Water Act permits, that permit writers should be using the most 
sensitive methods. So the policy directive is an important one, 
and I think it is consistent with where you are going.
    And so it really then becomes how do we advance the science 
which also has to be legally defensible because the history of 
the Great Lakes Initiative is that it is highly contentious and 
litigious. The agency has defended the Great Lakes regs 
successfully and we are very committed to continuing to do 
that.
    When it comes to the scientific community, working with not 
just our Office of Research and Development but other groups 
and academic consortia is important.
    I know, Mr. Chairman, that one of the eight priority areas 
of the action plan, the December, 2005 strategy was to improve 
the information and indicators for Great Lakes water quality 
progress. I know that for us that is where we, admittedly, need 
to continue to do more work with the academic community on 
measuring these extremely small levels.
    We just concluded a FACA in the agency. This is a 
nationally applicable FACA--it is not just in the Great Lakes--
on quantitation and detection limits. It is more than science. 
It is policy. It is also enforcement-related. We are committed 
to improving those detection limits, the methods for 
determining them.
    Mr. Oberstar. Detecting them in the water column and in the 
biota in the lakes?
    Mr. Grumbles. Detecting them in the water column, detecting 
them at the end of the discharge pipe for purposes of Clean 
Water Act compliance.
    Mr. Oberstar. There are also airborne substances, to be 
broad and inclusive, and do you discern that mercury is coming 
from the air as well as from runoff into the Great Lakes?
    Mr. Grumbles. Most definitely. Most definitely.
    Mr. Oberstar. So the first step is to determine the 
bioaccumulation and the next is to issue enforcement action, 
but between those two is the word, flexibility. Variances given 
over period of time have allowed industries to just continue to 
discharge.
    Mr. Grumbles. We recognize that the hallmark for progress 
under the Clean Water Act is having measurable reductions in 
pollutants. Zero discharge is not always an achievable goal.
    There needs to be some mechanisms included in the Act, and 
that is why for the last several decades the concept of mixing 
zones and variances and compliance schedules have been relied 
upon. It is an important component for our State partners who, 
as much as if not more than the EPA, are on the front lines for 
the permitting.
    So I think we all support the concept of raising the bar. 
The Act needs to have achievable goals and enforceable 
standards. So it requires more discussion but also working with 
the scientific community to improve the methods. Ultimately, 
EPA approves of the various methods that can then be used by 
the permit writers.
    You note and you noted in a previous hearing about the role 
of atmospheric deposition. That is one where all of us, not 
just in the agencies or in the interagency taskforce that the 
President created in his executive order but in our binational 
conversations with Canada and through IJC, in looking at the 
upcoming discussions on the Great Lakes Water Quality 
Agreement.
    There is significant value to looking at the agreement and 
seeing whether areas, biological, not just chemical and 
physical, indicators and near-shore and a broader approach, 
looking from a holistic standpoint which includes looking at 
atmospheric pollutants and non-point sources as well as the 
point sources which are the ones that are regulated by the 
Clean Water Act.
    Mr. Oberstar. Do you have an assessment of which of the 
lakes, or in some prioritized or descending order of 
significance, are more to less affected by mercury, not just 
mercury in the water column, but mercury in the bottom 
sediments from which plants take up the substance and fish eat 
the plants and people eat the fish?
    Mr. Grumbles. I know our State of the Lakes Report gets 
into the specifics, Mary Gade's program, and the web site on 
the Great Lakes has information on the stressors and challenges 
on each of the five Great Lakes.
    What I would suggest is that we could provide you and your 
Committee colleagues with as much detail as we possibly can on 
which of the lakes have the greatest stressors, atmospheric, or 
where mercury is the greatest problem.
    We worked very hard with the State of Minnesota to get the 
TMDL, the essentially statewide TMDL efforts approved last 
year. We think that can be a very useful tool. So I know it is 
certainly an issue in Lake Superior and in lakes throughout the 
State.
    Mr. Oberstar. It is very important in the inland lakes in 
Minnesota. They are shallower. They are more subject to 
deposition, and the fish have a much shorter cycle of uptake of 
pollutants in those lakes. They also warm faster than the Great 
Lakes. That TMDL issue is very, very important.
    Ms. Gade, do you have something to supplement Mr. Grumbles' 
statements?
    Ms. Gade. No. I will just echo what Mr. Grumbles said which 
is the State of the Great Lakes has some excellent data related 
to stressors including mercury in the various lakes, and we 
will pull that information and other information and provide it 
to you, sir.
    [Information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Oberstar. We will receive that information for the 
record and distribute it to the Members individually.
    Do you have a priority process for developing methodologies 
for the most significant, by which I mean dangerous, BCCs?
    There is a list in the GAO report: chlordane, dieldrin, 
DDT, hexachlorobenzene, lindane, mercury, PCBs, toxaphene, all 
of which just to pronounce them is scary. To accumulate them in 
your body is worse.
    Mr. Grumbles. Right. I think, as GAO noted, we have focused 
much of our effort on mercury in terms of the analytic methods.
    Mr. Chairman, I don't know. I can't answer right now how we 
prioritize. I know that in our materials that we provided to 
GAO we had some information, but I would ask if I could get 
back to you on how we prioritize the various BCCs, 
bioaccumulative chemicals of concern.
    [EPA did not provide this information to the Subcommittee 
and was unwilling to provide it upon subsequent request.]
    Mr. Oberstar. Just parenthetically, did any of you see the 
PBS TV movie, The First Emperor, on the Chin Dynasty?
    Emperor Chin who united China, and who was counseled when 
he sought eternity in this life--he wanted to be able to live 
forever as emperor of China--that he should take mercury. So 
they fed him vials of mercury every day, and he became worse 
and worse until it eventually drove him mad. Then he was buried 
in a huge mausoleum, with a lake of mercury that is still 
extant.
    All you need to do is see that movie and see how if you 
needed any other inspiration of how important it is to deal 
with that issue, in order to address it.
    You are doing that, and I appreciate it, but toxaphene was 
found in a small lake on Isle Royale which is above the level 
of Lake Superior, discovered there by the Environmental 
Research Lab in Duluth associated with your lab in Ann Arbor.
    How did it get there? Not from Lake Superior. Not from 
human activity on Isle Royale because there are only wolves and 
moose and a few park rangers and occasional visitors. So it got 
there from atmospheric deposition.
    It is all throughout the lakes, and power plants certainly 
are the prime genitors of mercury.
    Mr. Grumbles. I would say that emerging contaminants are of 
concern to us. We are also, both through the office that Mary 
oversees but also our headquarters office, Mr. Chairman, 
investing more and more in these emerging contaminants such as 
pharmaceuticals and personal care products.
    We think that an important part of an approach for the 
future is learning more about increasing amounts, detections of 
pharmaceuticals, whether it is through the wastewater treatment 
plant or through other sources are becoming identified in water 
bodies or contributing in some way to deformities in fish, and 
that is a growing concern.
    We think, as we do more research with other Federal 
agencies and with academia, we also are looking for specific 
ways to encourage product stewardship and take-back programs 
when it comes to unused pharmaceuticals, treating the toilet 
like a trash can and flushing it down. We think that would be a 
growing concern, so we are taking increasing actions on that 
front.
    Mr. Oberstar. Well, that is very encouraging because I have 
seen numerous scientific analyses of discharges from after 
treatment, from sewage treatment facilities, containing a whole 
list of pharmaceuticals that are being dumped, as you said, 
down the toilet or down the drain and not extracted from or 
during the treatment process.
    I don't want to beknight you with all of my questions, but 
I have a few others.
    What purpose is served in using the flexibilities? What is 
EPA attempting to achieve in using the so-called flexibilities, 
giving exemptions or extensions of time? What is the objective 
here?
    Mr. Grumbles. Well, the rules in the Act contemplate, for 
instance, when it comes to anti-backsliding or anti-
degradation. When there are material and substantial changes to 
a facility, there may be an exemption from the provision. But 
the point is it should be a temporary exemption, flexibility 
with accountability.
    Mr. Oberstar. But these are five year increments in many 
cases and then extended again.
    Mr. Grumbles. Flexibility with accountability is the key. 
The flexibility has been an important and necessary component 
over the years in terms of the Clean Water Act permitting 
programs.
    As you know, with municipalities in particular, compliance 
schedules become necessary in order to give the utility the 
time to not only invest in and find the necessary upgrades but 
to construct them and get them into place. Since permit terms 
are limited to five years, an example for a justification for a 
flexibility with accountability is that in compliance 
schedules, there will be additional time beyond that five 
years, ``flexibility'' for the community to build the necessary 
upgrades or improvements.
    When it comes to variances or mixing zones, these aren't 
new concepts. They have been a part of the Clean Water Act. It 
becomes a component of getting to an enforceable goal, 
recognizing that they may not be able to get there immediately. 
We understand the need to review and continue to check on how 
that flexibility is being exercised.
    Mixing zones, as you know, the Great Lakes Initiative, one 
of the significant steps forward under that initiative was 
banning the use of mixing zones in the Great Lakes, essentially 
banning them for bioaccumulative chemicals of concern.
    We stand by the regulations. We will continue to enforce 
them and take to heart GAO recommendations and other 
observations about States. We are in extensive discussions with 
several of the Great Lakes States on making further progress 
under the Great Lakes Initiative.
    Mr. Oberstar. I appreciate your statement about reassessing 
and reevaluating and taking to heart. We hear from the 
environmental community. We hear from others who are just users 
of the lakes, their frustration about repeating or extending 
these five year flexibility times without a cutoff date.
    But earlier, the IJC witness said that the IJC thinks it 
would be a good time now to revisit the U.S.-Canada, Canada-
U.S. Great Lakes Water Quality Agreement and revise it. Is that 
a view within EPA?
    Mr. Grumbles. We are certainly involved in those 
discussions and with the State Department and think it is 
important to make a decision, reach a decision on behalf of the 
Administration. We appreciate the work of the IJC and others in 
bringing the matter to our attention, and we are taking it 
seriously.
    I know the Administrator has been asking me questions about 
how does the existing agreement address issues that have 
developed over time. So, Mr. Chairman, we are discussing that 
and sharing that.
    Mr. Oberstar. If you think about it further, I hope that we 
would have an opportunity for further discussion; certainly 
before May, during which month the U.S.-Canada 
Interparliamentary Group meets, this time in the U.S. As in the 
past, Members of Parliament and Members of the Canadian Senate 
and Members of the U.S. House and U.S. Senate exchange views 
and have had lively discussion about the Water Quality 
Agreement.
    I would like to be able to present the views of Government 
for the EPA and for the U.S. Government. I always think it is 
fair to present Government views which may be different from my 
own or those of the individual Members, and I think it would be 
important for us to be able to do that in this coming meeting.
    Mr. Grumbles. Okay.
    Mr. Oberstar. Ms. Muedeking, do you think it is a good idea 
to revisit the Great Lakes Water Quality Agreement and have the 
two governments come together and make revisions? What 
revisions would you like to see?
    Ms. Muedeking. Chairman Oberstar, I am not familiar with 
USDA's involvement in that situation. So, could I respond in 
writing to that question for you?
    Mr. Oberstar. Certainly, of course.
    Ms. Muedeking. Thank you.
    [Subsequent to the hearing, Ms. Muedeking submitted the 
following: NRCS is not a member of the advisory board to the 
Great Lakes Water Quality Agreement. NRCS, as a member of the 
Regional Working Group of the Interagency Task Force (IATF), 
recommends ways to improve coordination and implementation of 
policies, strategies, projects, and priorities. NRCS and 
Conservation Districts provide technical and financial 
assistance to help farmers and ranchers plan and install 
conservation systems and practices on agricultural lands that 
meet resource conservation goals and priorities as identified 
by locally-led efforts. We also address Great Lakes Regional 
Collaboration non-point source reduction and restoration goals 
and objectives. NRCS's covservation priorities and program 
delivery system supports the objectives of the current Great 
Lakes Water Quality Agreement. The Great Lakes Water Quality 
Agreement provides for two binational boards to advise the 
International Joint Commission: the Great Lakes Water Quality 
Board and the Great Lakes Science Advisory Board. NRCS is not a 
member of either of these advisory boards and defers to our 
federal partners who are members of these institutions.]
    Mr. Oberstar. The Acting Chair of the U.S. Section of the 
IJC earlier said addressing non-point source pollution is 
critical in preserving and restoring the ecological health of 
the lakes. That has long been my mantra. I introduced the first 
non-point source bill back in 1984, I think it was, or 1985, to 
take that next step.
    We have done all the planning, Section 208 planning in the 
Clean Water Act, but now we have to attack runoff from non-
point sources after spending hundreds, literally, of billions 
of dollars by industry and municipalities to attack point 
sources.
    What are your thoughts about non-point runoff?
    Ms. Muedeking. NRCS works with producers through our 
voluntary conservation programs that are authorized in the Farm 
Bill to address non-point source pollution, for example, the 
Environmental Quality Incentives Program. In fiscal year 2006, 
we funded 45.3 percent of the applications that we received, 
and one of the limiting factors for our agency is how much is 
authorized in the Farm Bill to expend on these programs to 
address these issues.
    Mr. Oberstar. For farmers who feel themselves the object of 
concern and unrest from the environmental community, they think 
that the burden of runoff is principally theirs, but it is not 
principally agriculture.
    It is site developers for housing, for shopping centers, 
for parking lots, and all of those projects are under 
construction for months at a time. If responsible action isn't 
taken to contain the runoff and pollution, even if it is just 
soil, it will get into the ditches, into the creeks, into the 
streams, into the rivers and then into the lakes_the Great 
Lakes.
    What is the view at USDA on taking strong action on non-
point source?
    Ms. Muedeking. We continue to focus on voluntary programs 
that producers choose to participate in, sir.
    We do quite a bit work on soil erosion which you just 
mentioned. I thought it might be of interest to you that, 
although this is not a Great Lakes specific number, our 
National Resource Inventory shows that from 1982 to 2003, there 
has been a 43 percent decline in total soil erosion on cropland 
across the Country.
    Mr. Oberstar. That is an encouraging figure. It is progress 
over the situation of that attained in the eighties and the 
early nineties.
    But still, where farmers, just to return to the 
agricultural issue, farm to the waters edge which is usually 
land within 150 feet or so of a waterway; and that is marginal 
at best. It is usually a high acid mix, large amounts of 
limestone to bring it up to usable quality, and then some 
tiling to drain because it usually has high water content.
    Then, if dairy farmers, for example--I take this example 
out of a town meeting I had in the dairy country in my 
district--allow their dairy cows to go right up to the water's 
edge and even stand in the creek to do what they normally do, 
lift their tail and make a deposit, the farmer downstream is 
the one that has to deal with it. In those situations, maybe 
that farmer has someone upstream that is allowing his cattle to 
do that to him as well.
    They all have an interest. They have an interest on a 
watershed basis on dealing with this.
    My legislation, years ago, was to do exactly that, start 
with a voluntary program. But if you don't voluntary agree on 
the value of the protection of a buffer zone from the water's 
edge, then someone has to do it in the public interest. That 
will be the State and/or the Federal Government through EPA.
    Mr. Grumbles. Mr. Chairman?
    Mr. Oberstar. Yes.
    Mr. Grumbles. I just wanted to add that in the context of 
the Great Lakes and non-point sources, it was identified as one 
of the eight priority areas in the Regional Collaboration. NRCS 
stepped up to the plate, agreed to conduct rapid watershed 
assessments, rapid assessments for critical watersheds, eight 
watersheds within the Great Lakes. I know they have been 
working on that front.
    I, myself, have been very encouraged by the role of USDA 
here in Washington. We meet every two months to talk about non-
point source and CAFOs and other regulatory issues that EPA and 
USDA share.
    I think it is fair to say that both USDA and EPA are 
interested in advancing a watershed approach and also providing 
economic incentives, not regulatory directives under the Clean 
Water Act for non-point source since they are not regulated as 
point sources under the Clean Water Act, but using market-based 
tools, water quality trading as a way to advance progress and 
have a watershed approach.
    The other item you mentioned, which is really important I 
think, is non-point source isn't just agriculture. It is 
everybody, and it is construction and development. The agency 
is committed to issuing updated, improved effluent guidelines 
under the Clean Water Act for the construction and development 
industry before the end of this year.
    Mr. Oberstar. It is also those green lawns that Mrs. Miller 
talked about earlier.
    Mr. Ehlers.
    Mr. Ehlers. Yes, sir. Thank you, Mr. Chairman.
    I would like to talk just a bit about the Legacy Act, and I 
have a personal interest in that since I wrote the original 
bill. As you heard this morning, Chairman Duncan was very 
impressed that this bill was supported by the environmental 
community, by the business community and by local and State 
governments.
    I am pleased with how well it has gone, and I appreciate 
the fact that the EPA and the President have funded it at 
reasonable levels, although it is becoming clear that funding 
is going to have to be increased. I am committed to securing 
higher funding, but I wanted to check on some things.
    My understanding is that under the published guidelines, 
potentially responsible parties are eligible for the funding. 
That is fine because the statute particularly authorized them, 
especially expressly authorized them to serve as a non-Federal 
sponsor to help fund cleanup projects.
    However, I have been told that the scoring system 
established in the guidance for evaluating project submissions 
is heavily weighted against PRPs such that no project 
submissions are likely to be approved for funding. That is a 
bit disconcerting because we know that in many areas of concern 
a PRP could provide a significant source of non-Federal 
matching funds.
    Mr. Grumbles, I would just like your countenance on that. 
Can you explain the reasoning behind the guidelines which 
appears to make it much more difficult to PRPs to participate?
    On a similar note, can you offer any comments on the 
recommendations made by the regional collaboration about 
changes to the Legacy Act program, specifically with respect to 
the role that PRPs, as non-Federal project sponsors, could be 
involved in Legacy Act activities which might also be Superfund 
sites?
    I would appreciate your comments on that.
    Mr. Grumbles. We continue to believe that the Great Lakes 
Legacy Act is one of the most significant legislative 
enactments for the betterment of the Great Lakes over the last 
several decades. It is a tremendous one, a tool for 
accelerating cleanup as long as we all continue to honor the 
polluter pays principle. So the regulation that we issued to 
help in the selection and prioritization of projects starts out 
with recognizing that fundamental concept of honoring the 
polluter pays principal.
    But, as you point out, there are situations and in our view 
and the way the scoring is written, there are situations, a 
limited number of situations but situations where PRPs could be 
involved in this process, where the sites could involve a 
Superfund site if the PRP's involvement could contribute to the 
betterment of the site. By that, I mean going above and beyond 
what a PRP would agree to, to have an even higher level of 
cleanup than what may have been negotiated with lawyers and 
everyone in a ROD.
    The concept of the scoring is the Great Lakes Legacy Act's 
monies are not an unlimited supply. So we try to, consistent 
with the statute, find those instances where we get the most 
bang for our buck. It may be in some of those situations there 
are PRPs and if their involvement leads to an even more 
protective and effective cleanup, then they can be involved.
    You are right, Congressman, that the scoring for the 
selection of the sites under the Great Lakes Legacy Act that we 
issued has a bias or a preference for sites that are not 
Superfund sites and sites that don't involve PRPs, but we are 
not ruling out the possibility that in some of these situations 
where PRPs are part of the Great Lakes Legacy project, we could 
get even more than what they might have bargained for in 
negotiating it under Superfund.
    Mr. Ehlers. Okay. I recognize the concern, but at the same 
time I am concerned that the guidelines may have been written 
in a way that makes it more difficult for them to participate 
in sites where we want them to participate. And so, I would 
appreciate if you would go back and take a look at the 
guidelines and see whether my concerns are valid and whether it 
would be appropriate to revise them to make sure that PRPs can 
be participants.
    The whole intent of the Legacy Act is to get the job done 
and to get as much money from everyone involved as we can, and 
I would hate to see anyone excluded when they really shouldn't 
be excluded.
    One other point on the collaboration, as you know, they 
recommended the Legacy Act should go up to $150 million. I 
would be quite pleased with them if the EPA would consent to 
request that from the President, and I would be happy to argue 
with the President to request that and argue with the Congress 
to fund it.
    It is clear to me the program is working extremely well, 
and I am not saying that just because I authored it, but the 
feedback I have gotten from a number of individuals is that the 
Legacy Act is the best cleanup act that has ever been 
legislated. Now, maybe that is not a very high bar to reach, 
given the troubles we had with some other cleanups, but the 
point is it is working.
    So let's put our money onto something that is working, and 
I would very much appreciate your cooperation as I work with 
others. I know Chairman Oberstar shares my interest in this 
because we have had conversations about how well the Legacy Act 
is working. I would just like to see it go full tilt and get as 
much cleaned up as possible.
    Mr. Grumbles. Well, we thank you, Congressman.
    We recognize that when we face budgetary constraints, 
severe constraints in terms of getting the most investment out 
of the taxpayer dollars--that is part of the EPA annual budget 
which we will be discussing further with the Committee in the 
next couple weeks--we recognize that the Great Lakes Legacy Act 
component is a very good investment, and we continue to put a 
priority emphasis on that. We appreciate you.
    Mr. Ehlers. Just one side note, I frequently refer to this 
as trying to prevent illegal aliens from getting into our fresh 
water. That especially applies, of course, to the invasive 
species but also a certain amount to pollutants as well. So, 
since everyone wants to spend more money on keeping out illegal 
aliens, I thought that might be a good thing to tag onto.
    Thank you.
    [Laughter.]
    Mr. Oberstar. Well, I had never thought of introducing this 
issue into the presidential debates, but I think you have found 
a new avenue for us.
    In the matter of budget priorities, of course, we are all 
aware there are constraints and every program has its 
advocates. But, in the end when you are considering the space 
program, for example, I know Mr. Ehlers sits on the Science 
Committee and has and all this talk about a grand mission to 
Mars and sending men, I hope women as well, to the moon again, 
I don't know what they are looking for.
    What we have here cannot be replicated there. There is no 
other place in space that has fresh water, and we have to spend 
far more of our resources on protecting that precious slice of 
water on Earth. All the water of the Great Lakes and all the 
rest of the fresh water on the North American continent and 
Lake Baikal added and Lake Victoria added all together don't 
make a drop compared to the saltwater environment on Earth.
    We have to do our utmost to preserve and protect. That is 
your responsibility and ours as well, and we thank you very 
much for being here today to address it.
    The Subcommittee is adjourned.
    [Whereupon, at 1:23 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
</pre></body></html>
